Office of Inspector General


    Material Loss Review of
the Bank of the Commonwealth




Board of Governors of the Federal Reserve System


                                             April 2012
                                          April 12, 2012



Mr. Michael S. Gibson
Director, Division of Banking Supervision and Regulation
Board of Governors of the Federal Reserve System
Washington, DC 20551

Dear Mr. Gibson:

      Consistent with the requirements of section 38(k) of the Federal Deposit Insurance Act
(FDI Act), 12 U.S.C. 1831o(k), as amended by the Dodd-Frank Wall Street Reform and
Consumer Protection Act (Dodd-Frank Act), the Office of Inspector General of the Board of
Governors of the Federal Reserve System conducted a material loss review of the Bank of the
Commonwealth (Commonwealth). Under section 38(k) of the FDI Act, as amended, a material
loss to the Deposit Insurance Fund (DIF) was defined as an estimated loss in excess of $200
million. Pursuant to the Dodd-Frank Act, this threshold applies if the loss occurred between
January 1, 2010, and December 31, 2011. The FDI Act requires that we

        review the agency’s supervision of the failed institution, including the agency’s
         implementation of prompt corrective action
        ascertain why the institution’s problems resulted in a material loss to the DIF and
        make recommendations for preventing any such loss in the future

      The Federal Reserve Bank of Richmond (FRB Richmond), under delegated authority
from the Board of Governors of the Federal Reserve System (Federal Reserve Board), and the
Commonwealth of Virginia State Corporation Commission, Bureau of Financial Institutions
(State) supervised Commonwealth. Due to FRB Richmond and the State’s concerns about the
continued viability of the bank given its deteriorating capital position, the State closed
Commonwealth on September 23, 2011, and appointed the Federal Deposit Insurance
Corporation (FDIC) as receiver. The FDIC estimated that Commonwealth’s failure would
result in a $268.3 million loss to the DIF, or 27.5 percent of the bank’s $974.9 million in total
assets at closing. On October 12, 2011, the FDIC’s Office of Inspector General notified our
office that Commonwealth’s failure would result in a material loss to the DIF.

      Commonwealth failed because of the convergence of several factors, including corporate
governance weaknesses, an aggressive growth strategy that resulted in concentration risk,
insufficient credit risk management practices, and pervasive internal control weaknesses. These
factors, combined with deteriorating real estate markets, led to rapid asset quality deterioration.
Commonwealth failed to acknowledge the full extent of problem loans in its portfolio and
Mr. Michael S. Gibson                           2                                   April 12, 2012

adequately reserve against prospective losses. It also engaged in unsafe and unsound banking
practices to mask its financial condition. Mounting losses depleted earnings and eroded capital,
which prompted the State to close Commonwealth and appoint the FDIC as receiver.

      With respect to supervision, FRB Richmond did not comply with the examination
frequency guidelines for the time frame we reviewed, 2000 through 2011. Specifically, the 2006
full-scope examination did not occur within a year of the prior full-scope examination as
required by Supervision and Regulation Letter 97-8, Revisions to Examination Frequency
Guidelines for State Member Banks.

      Fulfilling our mandate under Section 38(k) of the FDI Act provides an opportunity to
determine, in hindsight, whether additional or alternative supervisory actions could have been
taken to reduce the likelihood of a bank’s failure or a loss to the DIF. Our analysis of FRB
Richmond’s supervision of Commonwealth revealed that FRB Richmond identified the bank’s
fundamental weaknesses during the 2000 examination but not did take early and decisive action
to resolve those weaknesses. Credit risk management was a recurring issue at the bank in
subsequent years. Further, FRB Richmond did not detect management’s similar inappropriate
response to asset quality deterioration noted during the 2000 full-scope examination and repeated
during the October 2009 full-scope examination. We believe that FRB Richmond had multiple
opportunities between 2007 and 2011 to take stronger supervisory action by implementing more
aggressive enforcement actions or downgrading Commonwealth’s CAMELS composite or
component ratings to address the bank’s persistent deficiencies. In our opinion, more forceful
supervisory action could have mitigated the loss to the DIF.

      The need for stronger supervisory action has been a consistent theme in our prior failed
bank reviews, as highlighted in our September 2011 Summary Analysis of Failed Bank Reviews.
While this aspect of Commonwealth’s failure is consistent with the overall themes contained in
our prior reports, this material loss review resulted in unique findings. For example, our prior
reports have not identified the need for a Reserve Bank to recommend the use of the Federal
Reserve Board’s cease-and-desist authority or removal order authority for management officials.
While we understand that those authorities should only be used when necessary, we believe that
the unique circumstances surrounding Commonwealth’s failure warranted such actions.

     We believe that the following findings noted during this material loss review represented
unique circumstances and issues in FRB Richmond’s supervision of Commonwealth:

        In 2009, FRB Richmond examiners did not detect management’s similar inappropriate
         response to asset quality deterioration consisting of (1) failing to acknowledge the
         bank’s problem loans and (2) making additional loans to troubled borrowers, even
         though similar issues were raised in FRB Richmond’s 2000 examination and the 2001
         board resolution. The October 2009 examination also did not address that this similar
         inappropriate response to asset quality deterioration had evolved into a deliberate effort
         to conceal the bank’s financial condition. FRB Richmond’s failure to detect these
         similarities led to an insufficient supervisory response following the 2009 examination.
Mr. Michael S. Gibson                            3                                  April 12, 2012

        Certain FRB Richmond examination reports did not appear to comply with Commercial
         Bank Examination Manual (CBEM) section 1000.1 because those reports failed to
         adequately address the business risks associated with specific findings.

        Specific FRB Richmond examination staff did not consult with the local ethics officer
         in accordance with FRB Richmond’s code of conduct despite the fact that those staff
         members considered a former FRB Richmond examiner employed by the bank in a key
         senior management position, who engaged in potentially suspicious activity, to be a
         friend or colleague.

        FRB Richmond did not respond to situations involving potentially suspicious activity in
         accordance with the expectations outlined in CBEM section 5020.1.

       We believe that Commonwealth’s failure offers lessons learned that can be applied to
supervising banks with similar characteristics and circumstances. Commonwealth’s failure
illustrates (1) the risks associated with consolidating corporate authority in a single individual;
(2) the risks associated with CRE loan concentrations, particularly CLD, and concentrations with
individual borrowers; and (3) the importance of establishing appropriate credit risk management
practices and internal controls prior to pursuing an aggressive growth strategy. Further, this
failure illustrates the importance of assuring that examiners are aware of and consider prior
supervisory actions when assessing an institution and developing a supervisory strategy,
particularly when subsequent enforcement actions are necessary to address issues previously
raised in earlier enforcement actions. The failure also highlights that Reserve Banks need to (1)
assure that bank management resolves risk management weaknesses and internal control
deficiencies, (2) appropriately determine the information that should be contained in an
examination report and convey significant details concerning important findings, and (3) take
aggressive and appropriate supervisory action when previously noted weaknesses continue or
similar behaviors emerge.

      We also made four recommendations to improve FRB Richmond’s and the Federal Reserve
Board’s supervisory activities. We provided our draft to the Division of Banking Supervision
and Regulation for review and comment. The Division Director stated that Banking Supervision
and Regulation staff concurred with the conclusions, lessons learned, and recommendations in
the report. The response is included as Appendix 3.

     We appreciate the cooperation that we received from FRB Richmond and Federal Reserve
Board staff during our review. The principal contributors to this report are listed in Appendix 4.
Mr. Michael S. Gibson                           4                                 April 12, 2012

      This report will be added to our public web site and will be summarized in our next
semiannual report to Congress. Please contact me if you would like to discuss this report or any
related issues.

                                           Sincerely,



                                      Anthony J. Castaldo
                                  Associate Inspector General
                                for Inspections and Evaluations

cc:   Chairman Ben S. Bernanke
      Vice Chair Janet L. Yellen
      Governor Daniel K. Tarullo
      Governor Elizabeth A. Duke
      Governor Sarah Bloom Raskin
      Ms. Jennifer Burns
Office of Inspector General


      Material Loss Review of
  the Bank of the Commonwealth




Board of Governors of the Federal Reserve System


                                          April 2012
                                                       Table of Contents


                                                                                                                                     Page

Background .............................................................................................................................. 11

Objectives, Scope, and Methodology ...................................................................................... 12

Causes of Commonwealth’s Failure ....................................................................................... 12

  Corporate Governance Weaknesses Not Addressed ............................................................... 12

     Concentrated Leadership ..................................................................................................... 13

     Ineffective Board of Directors ............................................................................................. 13

     Weak Internal Audit Program .............................................................................................. 13

     No Chief Credit Officer Until 2010 ..................................................................................... 14

  Aggressive Growth Strategy Resulted in Concentration Risk and Improved Earnings
  Prior to Declines in the Local Economy ................................................................................. 14

     Aggressive Growth Remained Focused on CRE Lending and Increased the Bank’s
     CLD Concentration .............................................................................................................. 15

     Commonwealth Developed Significant Loan Exposures to Related Borrowers ................. 17

     Aggressive Growth Resulted in Improved Earnings ........................................................... 17

  Adequate Credit Risk Management Framework Not Developed ........................................... 18

  Adequate Internal Controls Not Established........................................................................... 19

  Real Estate Market Decline Deteriorated Asset Quality......................................................... 20

  Deliberate Practices Masked Full Extent of Commonwealth’s Problem Loans ..................... 22

     Practices Observed in 2008 .................................................................................................. 22

     Unsafe and Unsound Practices Observed in 2009 ............................................................... 23

     Additional Practices Noted in 2010 ..................................................................................... 24

  Deficient ALLL Level and Methodology Resulted in Provision Expenses and Losses ......... 24

                                                                      7
  Losses Eroded Capital and Resulted in Bank Closure ............................................................ 25

Supervision of Commonwealth ............................................................................................... 26

  October 2000 Full-Scope Examination Resulted in a Board Resolution ................................ 29

  November 2001 Joint Full-Scope Examination Resulted in Component Rating
  Upgrades ................................................................................................................................. 30

  December 2002 Full-Scope Examination Resulted in CAMELS Composite Rating
  Upgrade and Release of the Board Resolution ....................................................................... 31

  January 2004 Full-Scope State Examination Resulted in Management Component
  Rating Upgrade ....................................................................................................................... 32

  January 2004 Target BSA Examination Released the BSA Board Resolution ...................... 32

  January 2005 Full-Scope Examination Resulted in Satisfactory Ratings ............................... 33

  August 2006 Liquidity Target Examination Determined Satisfactory Liquidity Risk
  Management ............................................................................................................................ 34

  October 2006 Full-Scope State Examination Retained a Satisfactory CAMELS
  Composite Rating.................................................................................................................... 34

  November 2007 Full-Scope Examination Retained a Satisfactory CAMELS Composite
  Rating ...................................................................................................................................... 34

  September 2008 Full-Scope State Examination Resulted in a CAMELS Composite
  Downgrade and a Board Resolution ....................................................................................... 36

  June 2009 Target Examination Maintained the CAMELS Composite 3 Rating but
  Resulted in Changes to Component Ratings ........................................................................... 37

  October 2009 Full-Scope Examination Resulted in CAMELS Composite and Component
  5 Ratings and Initiated a Written Agreement ......................................................................... 38

    Asset Quality Deteriorated Further ...................................................................................... 39

    Pervasive Credit Risk Management and Internal Control Issues Included Unsafe
    and Unsound Banking Practices .......................................................................................... 39

    Assessment of Large, Complex Borrowing Relationship Resulted in a SAR Filing........... 39




                                                                         8
     Certain FRB Richmond Examination Staff Should Have Consulted with the Local
     Ethics Officer ....................................................................................................................... 41

     Additional Significant Internal Control Weaknesses ........................................................... 41

     Examination Resulted in a Written Agreement ................................................................... 41

  May 2010 Joint Full-Scope Examination Retained the CAMELS Composite 5 Rating ........ 43

  October 2010 Target Examination Focused on Asset Quality and the Financial
  Condition of the Bank ............................................................................................................. 44

  May 2011 Full-Scope Examination Retained the CAMELS Composite 5 Rating ................. 45

Conclusions, Lessons Learned, and Recommendations ....................................................... 46

  Lessons Learned...................................................................................................................... 47

  Recommendations ................................................................................................................... 48

Analysis of Comments ............................................................................................................. 50

Appendixes ................................................................................................................................ 51

  Appendix 1 – Glossary of Banking and Regulatory Terms .................................................... 53

  Appendix 2 – CAMELS Rating System ................................................................................. 57

  Appendix 3 – Division Director’s Comments ........................................................................ 61

  Appendix 4 – Office of Inspector General Principal Contributors to This Report ................. 63




                                                                       9
Background
The Bank of the Commonwealth (Commonwealth) began operations in 1971 in Norfolk,
Virginia, as a state nonmember bank and converted to state member bank status in 1982. In
1988, Commonwealth Bankshares, Inc. (Bankshares), a holding company, was established and
acquired Commonwealth. Bankshares listed its common stock on the NASDAQ National
Market in 2000.1 Commonwealth’s business activities focused on commercial real estate (CRE)
lending, specifically construction, land, and land development (CLD) lending, in southeastern
Virginia and northeastern North Carolina. The Federal Reserve Bank of Richmond (FRB
Richmond), under delegated authority from the Board of Governors of the Federal Reserve
System (Federal Reserve Board), and the Commonwealth of Virginia State Corporation
Commission, Bureau of Financial Institutions (State) supervised Commonwealth.

Due to FRB Richmond and the State’s concerns about the continued viability of the bank given
its deteriorating capital position, the State closed Commonwealth on September 23, 2011, and
appointed the Federal Deposit Insurance Corporation (FDIC) as receiver. The FDIC estimated
that Commonwealth’s failure would result in a $268.3 million loss to the Deposit Insurance Fund
(DIF), or 27.5 percent of the bank’s $974.9 million in total assets at closing. On October 12,
2011, the FDIC’s Office of Inspector General notified our office that Commonwealth’s failure
would result in a material loss to the DIF. Under section 38(k) of the Federal Deposit Insurance
Act, as amended (FDI Act), a material loss to the DIF is defined as any estimated loss in excess
of $200 million. When a loss to the DIF is considered material, section 38(k) of the FDI Act
requires that the Inspector General of the appropriate federal banking agency

       review the agency’s supervision of the failed institution, including the agency’s
        implementation of prompt corrective action (PCA)2
       ascertain why the institution’s problems resulted in a material loss to the DIF
       make recommendations for preventing any such loss in the future

Before conducting our review, we became aware of investigations concerning this institution.3

This report consists of five major sections. The Objectives, Scope, and Methodology section
describes the purpose of our review, the review period, and the standards governing our review.
The Causes of Commonwealth’s Failure section contains our assessment of the contributing
causes that led to the bank’s failure. The Supervision of Commonwealth section provides an
examination-by-examination description of FRB Richmond’s and the State’s supervision of the
institution and assesses FRB Richmond’s supervisory approach. The Conclusions, Lessons
Learned, and Recommendations section summarizes the results of our analysis, describes the
lessons to be learned from this failure, and conveys our recommendations to improve the Federal
Reserve Board’s Division of Banking Supervision and Regulation’s oversight of Reserve Bank

    1
      Prior to 2000, the company’s stock was traded on the Over-the-Counter Bulletin Board. Over-the-counter
securities are not listed and traded on a formal exchange.
    2
      PCA is a framework of supervisory actions intended to promptly resolve capital deficiencies in troubled
depository institutions.
    3
      This material loss review fulfills a statutory mandate and does not serve any investigative purpose.

                                                       11
supervisory activities and FRB Richmond’s supervision of state member banks. The Analysis of
Comments section includes the Director of the Division of Banking Supervision and
Regulation’s assessment of our findings and observations.

Objectives, Scope, and Methodology
This evaluation sought to determine why Commonwealth’s failure resulted in a material loss to
the DIF and assessed FRB Richmond’s supervision of Commonwealth during our period of
review, 2000 through 2011. We extended our review period beyond the typical five-year period
due to the corporate governance and credit risk management issues noted during FRB
Richmond’s 2000 full-scope examination that were addressed by an informal enforcement action
implemented in 2001. We conducted our fieldwork from October 2011 through March 2012 in
accordance with the Quality Standards for Inspection and Evaluation issued by the Council of
the Inspectors General on Integrity and Efficiency.

To accomplish our objectives, we reviewed the Federal Reserve System’s Commercial Bank
Examination Manual (CBEM) and relevant supervisory guidance. We interviewed staff and
collected relevant data from FRB Richmond, the State, and the Federal Reserve Board. We also
reviewed correspondence, surveillance reports, regulatory reports filed by Commonwealth,
examination reports issued from 2000 through 2011, examination work papers prepared by FRB
Richmond, and relevant FDIC documents. Appendixes at the end of this report contain a
glossary of key banking and regulatory terms and a description of the CAMELS rating system. 4

Causes of Commonwealth’s Failure
Commonwealth failed because of the convergence of several factors, including corporate
governance weaknesses, an aggressive growth strategy that resulted in concentration risk,
insufficient credit risk management practices, and pervasive internal control weaknesses. These
factors, combined with deteriorating real estate markets, led to rapid asset quality deterioration.
Commonwealth failed to acknowledge the full extent of problem loans in its portfolio and
adequately reserve against prospective losses. It also engaged in unsafe and unsound banking
practices to mask its financial condition. Mounting losses depleted earnings and eroded capital,
which prompted the State to close Commonwealth and appoint the FDIC as receiver on
September 23, 2011.

Corporate Governance Weaknesses Not Addressed

The bank had a series of corporate governance weaknesses that should have been warning signs
for examiners. Many of these weaknesses coincided with Commonwealth’s pursuit of its
aggressive growth strategy, creating an unstable governance foundation to support such growth.



    4
      The CAMELS acronym represents six components: capital adequacy, asset quality, management practices,
earnings performance, liquidity position, and sensitivity to market risk. Each component and overall composite
score is assigned a rating of 1 through 5, with 1 indicating the least regulatory concern and 5, the greatest concern.

                                                          12
Concentrated Leadership

Commonwealth consolidated authority in one person who served as the president, chief
executive officer (CEO), and chairman of the board (hereinafter referred to as the CEO). This
authority allowed the CEO to exercise broad dominance and control over the institution’s affairs.
In 2000, FRB Richmond examiners identified situations in which the CEO exceeded limits on
his lending authority by extending unsecured overdrafts to two loan customers. We believe that
this should have been an early warning sign concerning the CEO’s willingness to circumvent
limits on his authority. Examiners also highlighted employees’ reluctance to discuss problems
with the CEO. Without open communication, which was a persistent issue during the CEO’s
tenure, operational weaknesses and internal control issues remained unresolved. Because
management was reluctant to discuss such issues with the CEO and alternatives to address and
resolve the issues internally were limited, Commonwealth employees raised concerns in
confidence directly with FRB Richmond examiners on a number of occasions.

Ineffective Board of Directors

Examiners frequently criticized Commonwealth’s board of directors for less-than-satisfactory
oversight. In 2000, FRB Richmond examiners noted that board members were unaware of
multiple loans to problem borrowers. In addition, examiners repeatedly noted that the board
members had not reviewed and approved key policies, such as the bank’s Loan Policy and Asset
Liability Management Policy, in a timely manner. In 2002 and 2005, FRB Richmond examiners
indicated that the bank’s board of directors had not monitored key credit risks. In 2008, State
examiners noted that management information systems were severely impaired, which limited
the reliability of the information flowing to the board members and prevented an accurate
assessment of risk in the loan portfolio. As a result, examiners concluded that bank management
and the board of directors may not have been aware of the magnitude of risk at the institution,
given the lack of effective credit risk monitoring. In a 2010 examination report, FRB Richmond
concluded that ―management . . . including the board of directors, have been negligent in their
duty to manage the affairs of the institution in a safe and sound manner.‖ In general, examiners
noted the board of directors’ delays in (1) reacting to economic developments,
(2) acknowledging the need to raise additional capital, and (3) resolving supervisory
recommendations. In our opinion, these frequently expressed concerns about the board of
directors’ oversight constituted a significant warning sign that the board of directors was not an
effective check on the CEO’s authority.

Weak Internal Audit Program

Significant weaknesses in the bank’s internal audit program increased Commonwealth’s
operational risk profile and allowed internal control deficiencies to emerge and persist. As early
as 2000, the bank was performing few internal audits covering high risk areas and had not hired a
qualified internal auditor. In 2002, a joint examination report repeated that Commonwealth’s
internal audit program still did not cover all of the bank’s high-risk areas, and subsequent
examinations reiterated this finding. In 2003, the bank failed to perform any internal audits, and
FRB Richmond once again recommended that the bank hire a qualified internal auditor and
emphasized that ―strong internal controls require that areas of high risk to the Bank be reviewed

                                               13
regularly.‖ In April 2004, the bank hired a qualified internal auditor. In a 2008 examination
report, FRB Richmond examiners recommended that the bank expand the scope of its internal
audit activities by providing adequate resources to the internal audit department. Examination
reports we reviewed indicated that the internal audit program suffered from a chronic lack of
resources, thereby limiting its effectiveness. In 2009, FRB Richmond examiners also criticized
the design of the internal audit program by indicating that the internal audit function should not
report to the senior vice president of operations.

In addition, examiners noted instances in which Commonwealth’s management did not provide
adequate information to the bank’s Audit Committee in 2004 and 2009, and a situation in which
management failed to implement internal audit recommendations in 2009. In 2004, examiners
noted that Audit Committee meeting minutes did not refer to any reports evaluating internal
controls, even though audit committees typically have responsibility for overseeing the
effectiveness of internal controls. In addition, we observed one apparent instance in which the
CEO held a draft internal audit report for three years before Audit Committee members received
the report in 2009. The report identified multiple significant findings related to a large borrower
relationship and the loan officer in charge of that relationship. Our analysis revealed no
explanation for the three-year delay. Examiners also noted that management had not fully
implemented corrective actions approved by the Audit Committee in 2009 in response to prior
internal audit reports. In our opinion, Commonwealth’s inability to identify and resolve
operational and internal control issues constituted a warning sign concerning the ineffectiveness
of the internal audit program and the Audit Committee.

No Chief Credit Officer until 2010

Commonwealth operated without a Chief Credit Officer (CCO) to oversee credit risk
management and credit administration and to manage the composition of the loan portfolio until
2010. The bank relied on two senior loan officers working in conjunction with the CEO to
oversee the loan portfolio. In 2009, examiners recommended diversifying management of the
loan portfolio since the two senior loan officers managed 60 percent of the bank’s total loan
portfolio and it was not possible for two loan officers to actively monitor so many loans. The
examiners also noted that ―to avoid potential conflict and independence issues, loan officers
should not have any input or control over credit administration issues regarding loans in their
portfolios.‖ In our opinion, the absence of a CCO contributed to loan portfolio oversight
weaknesses by allowing employees engaged in loan origination activities to perform oversight
responsibilities typically conducted by a CCO. This consolidation of authority in key personnel
allowed Commonwealth’s CEO and two senior lenders to operate beyond conventional limits on
authority.

Aggressive Growth Strategy Resulted in Concentration Risk and Improved Earnings Prior
to Declines in the Local Economy

The bank pursued an aggressive growth strategy under the CEO’s leadership that focused on
CRE lending and particularly on CLD loans. Examiners acknowledged the bank’s significant
loan growth as early as 2000 and its aggressive growth plan in 2005. Management remained
committed to the strategy, as evidenced by Commonwealth’s goal in its 2007 strategic plan to

                                                14
increase total assets from $840 million to $1 billion by 2009. Management exceeded that goal,
and total assets more than quadrupled from 2001 to 2009—increasing 465 percent from $230
million to $1.3 billion.

Aggressive Growth Remained Focused on CRE Lending and Increased the Bank’s CLD
Concentration

The bank had a concentration in CRE loans at the outset of our review period. In 2000, FRB
Richmond examiners noted that the bank’s CRE concentration contributed to its high level of
credit risk and recommended that it establish appropriate concentration limits. Supervision and
Regulation (SR) Letter 07-01, Interagency Guidance on Concentrations in Commercial Real
Estate, acknowledges that credit concentrations increase a financial institution’s vulnerability to
changes in the marketplace and compound the risks inherent in individual loans.5
Commonwealth’s CRE loans accounted for 477 percent of total risk-based capital in 2001, as
shown in chart 1. While Commonwealth’s total assets grew by 267 percent from 2001 to 2007,
the bank’s CRE concentration remained relatively stable at around 500 percent of total risk-
based capital, indicating that CRE lending growth remained consistent with overall portfolio
growth on a percentage basis.6 Therefore, Commonwealth’s vulnerability to real estate market
declines remained elevated.




    5
       The Federal Reserve Board, the Office of the Comptroller of the Currency, and the FDIC issued final
interagency guidance that preceded the release of SR Letter 07-01. 71 Fed. Reg. 74,580 (2006). The SR Letter
indicates that the previously issued guidance applies to state member banks.
     6
       According to the Federal Reserve Board’s SR Letter 07-01, an institution presents potential significant CRE
concentration risk if it meets the following criteria: (1) total reported loans for CLD represent 100 percent or more
of an institution’s total capital; or (2) total CRE loans represent 300 percent or more of the institution’s total capital,
and the outstanding balance of the institution’s CRE loan portfolio increased by 50 percent or more during the prior
36 months.

                                                            15
Chart 1: Total CRE Loan Concentration

                                                          800%
  CRE loans as a percentage of total risk-based capital




                                                          700%

                                                          600%

                                                          500%

                                                          400%

                                                          300%

                                                          200%

                                                          100%

                                                           0%
                                                                 2001      2002    2003     2004     2005     2006     2007     2008     2009

                                                                                                   Year-end
                                                            Commonwealth          Peer group*       Regulatory guidance for total CRE loans**


     * Peer group data became available in 2002.
     ** SR Letter 07-01 became effective in 2007; depiction of the CRE concentration guidelines prior to 2007 is for
illustrative purposes only.

Within Commonwealth’s CRE loan portfolio, the bank developed a concentration in CLD loans,
as illustrated in chart 2. CLD loan concentrations generally present heightened risk because
developers’ capacity to repay loans is contingent on whether they can either obtain long-term
financing or find a buyer for the completed project. From 2001 to 2008, Commonwealth’s CLD
loan concentration increased from 27 percent to 250 percent, as the bank’s CRE portfolio
increasingly comprised CLD loans. SR Letter 07-01 encourages banks with CLD concentrations
exceeding 100 percent to adopt strong risk management practices.




                                                                                                     16
Chart 2: Total CLD Loan Concentration

                                                          300%
  CLD loans as a percentage of total risk-based capital




                                                          250%

                                                          200%

                                                          150%

                                                          100%

                                                          50%

                                                           0%
                                                                  2001    2002   2003    2004     2005       2006     2007     2008     2009
                                                                                                 Year-end

                                                                 Commonwealth      Peer group*          Regulatory guidance for CLD loans**

     * Peer group data became available in 2002.
     ** SR Letter 07-01 became effective in 2007; depiction of the CLD concentration guidelines prior to 2007 is
for illustrative purposes only.

Commonwealth Developed Significant Loan Exposures to Related Borrowers

In addition to significant CRE loan concentrations, Commonwealth developed significant loan
exposures to related borrowers. Although legal lending limits established by many states
generally restrict exposure to individual and related borrowers as a percentage of capital, FRB
Richmond examiners indicated that Virginia does not require that loans to related borrowers,
such as family members, associates, or partnerships, be aggregated, as long as each loan has a
separate and distinct source of repayment. As a result, Commonwealth made numerous loans to
related borrowers that appeared to benefit a sole borrower. An October 2009 examination noted
that three large borrowing relationships constituted 93 percent of the bank’s capital. One of
these relationships amounted to nearly $40 million—approximately 30 percent of the bank’s
capital—and had been identified in the examination report as a problem relationship. In 2009,
examiners conducted a detailed assessment of another relationship in response to information
provided by a bank employee. As a result, examiners began to uncover the interconnectedness
of this complex lending relationship and identified instances in which the loans benefited a sole
borrower. The customer relationships involving multiple loans to related borrowers increased
the risk that a single borrower experiencing financial difficulties could significantly affect the
bank’s capital position and ultimately contributed to Commonwealth’s failure.

Aggressive Growth Resulted in Improved Earnings

Management’s aggressive growth strategy also resulted in improved earnings performance.
From 2000 through 2002, Commonwealth’s net interest margin decreased due to low loan yields

                                                                                                   17
and high funding costs resulting from intense local competition for deposits.7 Subsequently,
however, the bank’s CRE lending growth resulted in improved earnings due to the higher yields
on CRE loans. As a result, Commonwealth’s net interest margin substantially exceeded the peer
group average from 2003 through 2007, as illustrated in chart 3. In addition, the bank’s net
income grew from $794,000 in 2001 to more than $12 million in 2007, or by more than 1400
percent, due to rapid growth of the bank’s CRE loan portfolio and its strong net interest margin.

Chart 3: Net Interest Margin

                                         6.00%
  Percentage of average earning assets




                                         5.00%

                                         4.00%

                                         3.00%

                                         2.00%

                                         1.00%

                                         0.00%
                                                 2002   2003   2004   2005     2006     2007    2008    2009   2010   2011*
                                                                             Year-end

                                                                 Commonwealth              Peer group

                                     *As of 6/30/11

Adequate Credit Risk Management Framework Not Developed

Commonwealth’s board of directors and management failed to establish a credit risk
management framework and infrastructure commensurate with the risks in the bank’s loan
portfolio. FRB Richmond examiners repeatedly noted that the bank’s risk management
capabilities had not kept pace with the bank’s aggressive growth. Our analysis indicated that the
bank had significant credit risk management problems in 2000, these issues continued to persist
following the release of the 2001 board resolution, and these weaknesses became even more
pronounced in the years preceding Commonwealth’s failure.

In 2000, examiners determined that Commonwealth’s credit risk was high because of weak risk
management practices and a concentration in CRE loans. During its 2000 examination, the
bank’s difficulties with problem loan recognition became apparent when 75 percent of the loan
classifications represented downgrades from internal risk ratings assigned by the bank.
Examiners noted that loan review was ―essentially nonexistent,‖ which prevented
Commonwealth from accurately identifying loan risk. The 2000 examination identified

                                     7
     Net interest margin is a performance metric used to evaluate a bank’s profitability by measuring the difference
between interest income generated and the interest paid.

                                                                                      18
significant weaknesses related to loan underwriting, risk identification, and loan administration.
The examination resulted in an informal enforcement action in the form of a board resolution.
The weaknesses examiners identified included (1) extensions of credit to classified borrowers,
without the support of current financial information or analysis; (2) failure to recognize problem
loans in a timely manner, contributing to a ―woefully inadequate‖ allowance for loan and lease
losses (ALLL); (3) failure to establish limits for credit concentrations; and (4) stale classified
assets, including overdrafts and other real estate owned (OREO), resulting in losses.

Although the bank’s earnings performance, asset quality, and supervisory ratings generally
improved following the 2000 examination, examiners repeatedly noted many similar credit risk
management weaknesses from 2001 to 2008, including

        problem loan recognition, specifically delays in downgrading internal loan risk ratings
         based on deteriorating loan performance
        deficiencies in the ALLL methodology
        lack of limits, monitoring, and stress testing related to credit concentrations
        stale overdrafts
        lack of current borrower financial information, particularly for commercial loans
        numerous documentation exceptions in loan files
        Regulation H and Y violations pertaining to loan-to-value (LTV) exceptions and
         appraisals, respectively8

Despite these weaknesses, Commonwealth’s earnings exceeded peer group averages from 2003
to 2007, in part because of its minimal classified assets.

Adequate Internal Controls Not Established

The board of directors and management also failed to establish adequate internal controls to
assure that the bank operated in a safe and sound manner. CBEM Section 5017.1 indicates that

         [a] comprehensive system of internal controls is essential for a bank to safeguard
         its assets and capital, and to avoid undue reputational and legal risk. Senior
         management is responsible for establishing an appropriate system of internal
         controls and monitoring compliance with that system. Although no single control
         element should be relied on to prevent fraud and abuse, these acts are more easily
         perpetrated when proper segregation and rotation of duties do not exist.9

    8
       The Federal Reserve Board’s Regulation H, Subpart J, Appendix C, states that the aggregate amount of all
loans in excess of the supervisory LTV limits should not exceed 100 percent of total capital. Moreover, within the
aggregate limit, total loans for all commercial, agricultural, multifamily, or other non-one- to four-family residential
properties should not exceed 30 percent of total capital. An institution will receive increased supervisory scrutiny as
the total of such loans approaches these levels. The Federal Reserve Board’s Regulation Y, Subpart G, (1) identifies
which real estate-related financial transactions require the services of an appraiser, (2) prescribes which categories
of federally related transactions shall be appraised by a State certified appraiser and which by a State licensed
appraiser, and (3) prescribes minimum standards for the performance of real estate appraisals in connection with
federally related transactions under the jurisdiction of the Federal Reserve Board.
     9
       Segregation of duties refers to the notion of separating responsibilities within an institution to assure that no
employee is in a position to both perpetrate and conceal errors or fraud.

                                                          19
Commonwealth allowed clear violations of segregation of duties principles to develop within key
functions, which increased the bank’s fraud risk. Specifically, the two loan officers managing
the majority of the loan portfolio also had the authority to (1) sign disbursement checks, (2)
authorize general ledger tickets to cover loan payments, (3) authorize customer loan draw
requests, and (4) inspect construction projects. To effectively minimize fraud risk, loan
origination staff should not sign disbursement checks. Similarly, loan officers should not have
any role in accounting processes or controls given their lack of independence and the conflicts
presented by their interest in the performance of their loans. In our opinion, these control
failures allowed the two loan officers to have too much control over the lending function, thereby
exposing Commonwealth to fraud risk.

The loan officers’ authority also extended to cashier’s checks. Based, in part, on concerns raised
by a bank employee, examiners reviewed Commonwealth’s controls surrounding cashier’s
checks. During the October 2009 examination, FRB Richmond examiners noted three instances
in which a loan officer authorized customer accounts to be overdrawn to purchase cashier’s
checks. Examiners also noted a violation of bank policy when a loan officer authorized the
purchase of a cashier’s check with a personal check drawn on another institution. The check was
later returned due to insufficient funds. We believe that the bank’s internal control weaknesses
further increased Commonwealth’s risk profile by presenting the opportunity for key employees
to engage in unsafe and unsound practices.

Real Estate Market Decline Deteriorated Asset Quality

As a result of Commonwealth’s high CRE and individual borrower concentrations, weak internal
control framework, and credit risk management weaknesses, the bank was extremely vulnerable
to real estate market deterioration. Commonwealth’s asset quality began to deteriorate as the
real estate sector weakened in Virginia and North Carolina in 2007, as illustrated in chart 4.




                                               20
Chart 4: Housing Price Index (HPI) for Virginia and North Carolina

            20

            15

            10
                                                                                            Virginia
              5
    HPI*




                                                                                            North
              0                                                                             Carolina

             -5

            -10

            -15
                    2005      2006      2007      2008      2009       2010      2011


         *The HPI is a broad measure of the movement of single-family house prices. The HPI is a weighted
repeat-sales index that measures average price changes in repeat sales or refinancing on the same properties.

Specifically, the bank’s CLD portfolio deteriorated as borrowers struggled to complete and sell
their residential construction projects. A September 2008 examination noted that classified
assets increased from $8 million at the time of the previous examination, or 7 percent of tier 1
capital and the ALLL, to $80 million, or 65 percent of tier 1 capital and the ALLL. The trend
continued, as classified assets increased 235 percent to approximately $268 million by October
2009, or 178 percent of tier 1 capital and the ALLL.

As illustrated in chart 5, the bank’s delinquencies were primarily composed of CRE loans, with
approximately half of delinquencies attributed to CLD loans in 2009.10 Loan losses peaked at
approximately $40 million in 2009, with nearly $20 million attributable to CLD loans.




    10
           Total CRE includes CLD; multifamily; and nonfarm, nonresidential loans.

                                                          21
Chart 5: Delinquent and Nonaccrual Loans by Type

                      200,000
                      180,000
                      160,000
                      140,000
   ($000's omitted)




                      120,000
                      100,000
                       80,000
                       60,000
                       40,000
                       20,000
                           0
                                      2007               2008                 2009               2010              2011*
                                                                             Year-end


                        CLD     Multifamily   Nonfarm, nonresidential   1- to 4-family residential   Commercial & industrial

                        *As of 6/30/11


Deliberate Practices Masked Full Extent of Commonwealth’s Problem Loans

We believe that the board of directors and management’s failure to implement appropriate credit
risk management capabilities and internal controls created the opportunity for Commonwealth to
engage in a series of unsafe and unsound practices designed to mask the bank’s true financial
condition. These efforts became increasingly apparent from 2008 through 2010.
Practices Observed in 2008

During a September 2008 examination, State examiners noted the bank’s hesitancy to recognize
the severity of problems in the loan portfolio as evidenced by the large number of loans
downgraded during the examination. Examiners determined that Commonwealth kept loans
current by (1) inappropriately using interest reserves and capitalizing interest on loans, (2)
extending loan maturities without full collection of interest, and (3) accepting separate notes for
interest payments. These practices masked the true condition of the underlying loans by creating
the appearance that many of the bank’s nonperforming loans were performing.




                                                                        22
Unsafe and Unsound Practices Observed in 2009

During its October 2009 full-scope examination, FRB Richmond noted that Commonwealth
relied on a series of unsafe and unsound practices to mask the past-due status of criticized and
classified loans, including (1) changing loan terms to keep loans current; (2) applying loan
payments to interest only when contractual terms required both principal and interest; (3)
overdrawing customer deposit accounts to make loan payments; (4) using interest reserves to
keep loans current when construction had not proceeded as planned; (5) capitalizing delinquent
interest, overdrafts, and other fees at maturity into new notes; (6) using funds from related
entities, without authorization, to make loan payments; (7) extending interest due dates in cases
when payments had not been made; (8) extending additional principal to cover payment
shortfalls; and (9) permitting loan officers to authorize general ledger tickets to cover loan
payments.11 The severity of these findings caused FRB Richmond to implement a formal
enforcement action and insist that loan officers have no credit administration involvement with
loans in their portfolios, including loans they originated.

During the October 2009 examination, FRB Richmond examiners noted that the bank had a high
volume of loans with change-in-terms agreements. Commonwealth used these agreements to
modify loan terms to, among other things, increase loan amounts or extend the loan term or
payment dates to keep loans current. Examiners noted that, in general, the bank’s liberal use of
change-in-terms agreements made it difficult to determine how loans were actually performing
and could mask the actual delinquency rates in the loan portfolio. Examiners indicated that
many of these loans appeared to be troubled debt restructurings, which should have been
reported as such on the bank’s Call Report and reflected in the bank’s internal systems.
Examiners also noted 33 past-due loans that had been omitted from an internal management
report.

During the October 2009 examination, examiners began to discover the risks associated with the
bank’s large, complex relationships, in part because a bank employee suggested that FRB
Richmond scrutinize a particular relationship. Examiners determined that the senior loan officer
in charge of the relationship was ―excessively accommodating‖ to the borrower. Although the
borrower’s debt had been interest only for an extended period of time, the bank continued to
make loans to the borrower and increase the borrower’s overall debt. Commonwealth also either
(1) renewed the borrower’s loans when they came due even if the obligations had not been
satisfied, or (2) paid them off with proceeds from new loans. Examiners highlighted their
difficulties in attempting to quantify the entire borrower relationship due to the multitude of
related entities involved, such as limited liability companies, partnerships, and business
associates.

FRB Richmond’s analysis indicated that loan proceeds that were disbursed to one entity actually
benefited another related entity and that some loan proceeds were used to pay down debt at
another local institution. Due to the ―excessively accommodating‖ treatment from the senior
loan officer in charge of the relationship, FRB Richmond’s Bank Secrecy Act (BSA) specialist


    11
        Criticized loans includes ―special mention‖ loans that are exhibiting signs of weakness but have not been
classified as substandard, doubtful, or loss.

                                                         23
reviewed the loan officer’s deposit accounts at Commonwealth and the loan customer’s deposit
accounts at another local institution for signs of suspicious activity.12

Additional Practices Noted in 2010

During an October 2010 target examination, examiners determined that bank management took
additional steps to mask the full extent of its problem assets. Examiners determined that the
bank had financed multiple purchases of the properties in its OREO portfolio with minimal
financial analysis of the borrowers and on ―extremely generous‖ terms.13 This practice allowed
management to remove OREO properties from the bank’s books and replace each foreclosed
property with a performing loan collateralized by the previously foreclosed property. In
addition, the bank accounted for OREO properties that required improvements at their as-
complete value, rather than at their fair market value. Examiners recommended that the bank
write down the value of these properties. The bank also accounted for several OREO properties
without a current appraisal, which also potentially exposed the bank to further write-downs.

Further, Commonwealth funded loans to improve its OREO properties. In several instances,
examiners determined that the bank disbursed loan proceeds for construction either fully at
closing or without evidence that any work had been performed. In one instance, the bank filed a
suspicious activity report (SAR) on the borrower after examiners conducted a site visit to the
applicable property and determined that no construction had occurred.14

Deficient ALLL Level and Methodology Resulted in Provision Expenses and Losses

Bank management also failed to adequately reserve against potential loan losses. As a result, the
bank routinely incurred significant provision expenses to bring the ALLL to a level
commensurate with the actual risk of loss. The October 2009 examination required
Commonwealth to increase the ALLL by $20 million as of September 30, 2009, which resulted
in a refiling of the bank’s third quarter 2009 Call Report. Examiners also noted multiple issues
with the bank’s reserve methodology, including that (1) the methodology did not account for a
prolonged downturn in asset quality, (2) many impairment calculations were based on outdated
appraisals, and (3) loans classified during the examination needed to be assessed for impairment.
Provision expenses for year-end 2009 totaled $54 million, resulting in losses of nearly $25
million, as noted in chart 6.




    12
        FRB Richmond could not identify any indications of direct payments involving the customer and the senior
loan officer. The limited scope of this review is described in greater detail in the Supervision of Commonwealth
section of this report.
     13
        This portfolio typically consists of the bank’s inventory of foreclosed properties.
     14
        Suspicious activity reporting requirements generally require depository institutions to file a report with law
enforcement officials upon detecting or suspecting a violation of criminal law.

                                                          24
Chart 6: Provision Expenses and Net Income

                      60,000

                      40,000

                      20,000
 ($000's omitted)




                           0
                                     2006    2007        2008       2009          2010   2011*
                     -20,000

                     -40,000

                     -60,000
                                                         Year-end

                                            Provision expenses       Net income

                    *As of 6/30/11


Due to persistent and severe asset quality deterioration, Commonwealth continued to increase the
level of its ALLL, resulting in provision expenses of $53 million in 2010. The bank’s earnings
could not absorb these expenses, and the institution experienced losses of $50 million in 2010.
Examiners again noted issues with the bank’s recognition of problem assets and reserve
methodology during a May 2011 examination and required an additional $21 million provision
expense to adequately fund the reserve as of second quarter 2011. As a result, losses amounted
to $33 million as of June 30, 2011.

Losses Eroded Capital and Resulted in Bank Closure

FRB Richmond implemented the PCA provisions of the FDI Act and timely notified
Commonwealth when the bank reached various PCA categories. In 2008, Commonwealth
applied for more than $28 million in Troubled Asset Relief Program funds through the Capital
Purchase Program, but withdrew its application in 2009. Given the asset quality deterioration
and weak economic conditions, Commonwealth’s holding company injected $15 million into the
bank during the first quarter of 2009. However, FRB Richmond anticipated further losses during
a June 2009 target examination and required the bank to develop a capital plan. FRB Richmond
determined that the bank’s capital plan was insufficient because the plan needed to better address
the bank’s compliance with regulatory capital ratios and PCA guidelines.




                                                                    25
In October 2009, Commonwealth refiled its September 30, 2009, Call Report due to $20 million
in provision expenses required by examiners. As a result, the bank temporarily fell below well
capitalized status during the examination. However, Commonwealth remained well capitalized
as of September 30, 2009, due to a $4 million injection from the holding company. During the
joint examination that began in May 2010, examiners noted that the bank’s capital levels were
critically deficient relative to its risk profile and anticipated that Commonwealth’s capital would
decline beneath well capitalized status in the fall of 2010. In July 2010, FRB Richmond
implemented a written agreement requiring Commonwealth to submit a written plan to maintain
sufficient capital. FRB Richmond approved the bank’s plan in August 2010. The bank failed to
raise additional capital, and it fell to adequately capitalized as of September 30, 2010, following
$30 million in provision expenses. As a result, the bank could not accept, renew, or roll over any
brokered deposits without prior approval from the FDIC.15

By year-end 2010, Commonwealth had become undercapitalized. Commonwealth dropped to
critically undercapitalized as of June 30, 2011, when continued losses, largely attributable to
provision expenses, and management’s inability to raise additional capital caused the bank’s
tangible equity ratio to fall below 2 percent.16 The Federal Reserve Board issued a PCA
directive on July 1, 2011, that, among other things, required the bank to accomplish the
following within 30 days of the directive’s date: (1) raise additional capital or take other
measures to achieve the adequately capitalized PCA designation; or (2) be acquired by, or merge
with, another depository institution. Commonwealth failed to comply with the terms of the
directive. Mounting losses in the CRE portfolio, along with required provision expenses, eroded
the bank’s capital and caused the bank to drop from well capitalized to critically
undercapitalized within nine months. The State closed the bank on September 23, 2011, and
appointed the FDIC as receiver.

Supervision of Commonwealth17
Our analysis of FRB Richmond’s supervision of Commonwealth during our period of review,
2000 through 2011, revealed that examiners identified the bank’s fundamental weaknesses, but
did not take early, forceful supervisory action to address these weaknesses.

Additionally, we determined that FRB Richmond did not comply with the Federal Reserve
Board’s examination frequency requirements and guidelines for our period of review.18 Under

    15
        As of June 30, 2010, approximately 41 percent of the bank’s total deposits were brokered deposits, thereby
increasing the bank’s liquidity risk.
     16
        CBEM defines the tangible equity ratio as core capital elements plus cumulative perpetual preferred stock, net
of all intangible assets except those amounts of mortgage servicing assets allowable in tier 1 capital.
     17
        Throughout this section of the report, we use the term ―examiners‖ to generally refer to the examination staff
conducting the examination being discussed. As applicable, the term may refer to FRB Richmond examiners, State
examiners, or examination staff from both entities for joint examinations.
     18
        12 C.F.R. 208.64 generally requires Reserve Banks to conduct an annual full-scope examination of state
member banks, subject to certain exceptions. 12 U.S.C. 326 and the alternate examination approach permit a
Reserve Bank to rely on examinations performed by a state supervisor to satisfy this requirement. State officials
mentioned to us that they are subject to separate standards for conducting timely examinations. The Reserve Bank
must assure that it satisfies applicable timeliness and scope requirements regardless of whether the State conducts
the examination.

                                                         26
the alternate examination approach, FRB Richmond was responsible for assuring that required
examinations were conducted in a timely manner. The 2006 full-scope examination, however,
did not occur within a year of the prior full-scope examination, as required by 12 CFR 208.64
and SR Letter 97-8, Revisions to Examination Frequency Guidelines for State Member Banks.

During the period covered by our review, FRB Richmond and the State conducted 11 full-scope
examinations and 4 target examinations; executed 5 enforcement actions—3 board resolutions, a
written agreement, and a PCA directive; and implemented the applicable provisions of PCA.
The bank’s supervisory history is outlined in table 1 below.




                                              27
Table 1: Commonwealth Supervisory Overview
                    Examination                                                  CAMELS Component Ratings




                                                                                           Asset Quality

                                                                                                           Management
                                                                     CAMELS




                                                                                                                                               Sensitivity
                                                                                                                                   Liquidity
                                                   Agency Conducting                                                                                             Supervisory




                                                                                                                        Earnings
                                                                                 Capital
     Start     Report Issue                                          Composite
                                    Scope           the Examination                                                                                                Actions
     Date         Date                                                Rating



                                                                                                                                                               Board resolution
    10/30/00     12/29/00             Full            FRB Richmond         3      3         3               3            4          2           3
                                                                                                                                                               adopted 02/20/01

    11/05/01     01/25/02             Full                 Joint           3      2         2               2            4          2           3

                                                                                                                                                               Board resolution
                                                                                                                                                                  released
    12/02/02     01/09/03             Full            FRB Richmond         2      2         2               3            2          2           2
                                                                                                                                                             BSA board resolution
                                                                                                                                                              adopted 02/18/03

    01/05/04     04/20/04             Full                 State           2      2         2               2            2          2           2

                                                                                                                                                             BSA board resolution
    01/12/04     04/09/04         Target BSA          FRB Richmond         NA    NA        NA              NA           NA NA NA
                                                                                                                                                                  released

    01/10/05     03/07/05             Full            FRB Richmond         2      2         2               2            2          2           2

                                    Target
    08/14/06     09/26/06                             FRB Richmond         NA    NA        NA              NA           NA NA NA
                                   liquidity

    10/16/06     12/27/06             Full                 State           2      1         2               2            1          2           1


    11/28/07     01/11/08             Full            FRB Richmond         2      1         2               2            1          2           2

                                                                                                                                                               Board resolution
    09/29/08     01/23/09             Full                 State           3      2         4               3            4          2           2
                                                                                                                                                               adopted 04/21/09
                                    Target
    06/08/09     08/13/09      asset quality and      FRB Richmond         3      3         4               3            3          3           2
                                   liquidity
                                                                                                                                                              Written agreement
    10/19/09     03/19/10             Full            FRB Richmonda        5      5         5               5            5          5           5
                                                                                                                                                              executed 07/02/10

    05/03/10     08/31/10             Full                 Jointb          5      5         5               5            5          5           5

                                    Target
                               asset quality and
    10/18/10     03/15/11                             FRB Richmonda        5      5         5               5            5          5           5
                               overall financial
                                  condition
                                                                                                                                                             PCA directive issued
    05/09/11     08/25/11             Full            FRB Richmonda        5      5         5               5            5          5           5
                                                                                                                                                                  07/01/11
a
    The State and the FDIC participated in this examination.
b
    The FDIC participated in this examination.




                                                                      28
October 2000 Full-Scope Examination Resulted in a Board Resolution

As a result of an October 2000 examination, FRB Richmond assigned Commonwealth a
CAMELS composite rating of 3 (fair) and characterized Commonwealth’s overall performance
as less than satisfactory. Each of the bank’s CAMELS components received 3 ratings, except for
the earnings and liquidity components, which were rated 4 and 2, respectively. FRB Richmond
noted significant and pervasive weaknesses during this examination, which resulted in an
informal enforcement action in the form of a board resolution. Those weaknesses included (1)
the board of directors’ failure to exercise proper oversight, and (2) Commonwealth’s declining
financial performance.

Examiners stated that the volume of classified assets was unacceptable and reflected weak credit
risk management practices. Asset quality deterioration and related provision expenses had
strained the bank’s earnings. Weak earnings, coupled with asset growth, contributed to the fall
of Commonwealth’s capital ratios below well capitalized status for PCA purposes.

In the examination report, FRB Richmond commented on the CEO’s dominance over the
institution’s policies and decision-making. Examiners noted that several members of the
management team were reluctant to discuss issues with the CEO and expressed concern that
issues may not be resolved in a timely manner or communicated to the board of directors.
Examiners also found that the CEO had exceeded his unsecured lending authority in granting
overdrafts to two customers. Further, FRB Richmond noted that board members were not
always aware of (1) loans made to problems borrowers, or (2) policy exceptions. FRB
Richmond noted that Commonwealth exceeded policy limits for liquidity targets and interest rate
risk tolerances approved by the board of directors. Examiners noted that some policy limits may
have been unrealistic given the bank’s aggressive growth strategy. With respect to interest rate
risk, examiners noted that management had no plans ―to reduce the current exposure or to return
within risk tolerances.‖ In our opinion, these examples demonstrated the CEO’s willingness to
circumvent the board of directors and ignore policy limits and restrictions on his authority.
These examples should have been warning signs that the CEO was excessively dominant at the
institution.

Examiners noted additional significant weaknesses. Examiners recommended that
Commonwealth expand internal audit coverage of high risk areas and noted that the bank had not
hired a qualified internal auditor. FRB Richmond determined that the bank’s credit risk was high
and increasing due to a combination of weak risk management practices and a concentration in
CRE loans, with 51 percent of the loan portfolio consisting of CRE loans, compared to a 25
percent peer group average. Within the CRE portfolio, examiners also noted a concentration in
loans to hotels and motels. Examiners noted that loan review was ―essentially nonexistent.‖
Further, 75 percent of loans classified by examiners represented downgrades from internal risk
ratings assigned by the bank.

Examiners also identified significant weaknesses related to loan underwriting, risk identification,
and loan administration. Specific findings included (1) extensions of credit to classified
borrowers without current financial information or analysis to support additional credit;
(2) failure to recognize problem loans in a timely manner, contributing to a ―woefully

                                                29
inadequate‖ ALLL; (3) failure to establish limits for credit concentrations; and (4) stale classified
assets, including foreclosed properties and overdrafts, resulting in losses.

As a result of the weaknesses noted during this examination, FRB Richmond and the State
implemented an informal enforcement action in the form of a board resolution.
Commonwealth’s board of directors adopted a board resolution requiring the bank to (1) not lend
to borrowers with classified loans without the board of directors’ prior approval, (2) analyze
current financial information of the borrower prior to making a loan, (3) maintain an adequate
ALLL and review the adequacy quarterly, (4) establish a program of independent loan review to
assure timely recognition of problem loans, (5) develop a written strategic plan, and (6) review
liquidity and interest rate risk policies and obtain prior approval of exceptions from the board of
directors.

In our opinion, the significant findings noted during this examination warranted a stronger
supervisory response than a board resolution. As outlined in CBEM section 5040.1, a board
resolution represents a series of commitments formalized by the bank’s board of directors and
reflected in the corporate minutes. By contrast, a memorandum of understanding (MOU) is
another type of informal enforcement action that is a ―highly structured written, but informal,
agreement‖ signed by the Reserve Bank and the bank’s board of directors. CBEM Section
5040.1 indicates that ―an MOU is generally used when a bank has multiple deficiencies that the
Reserve Bank believes can be corrected by the present management.‖ In our opinion,
Commonwealth’s multiple deficiencies made an MOU more appropriate because this type of
action would have (1) better conveyed the severity of the issues and the urgent need to resolve
them, and (2) provided FRB Richmond the opportunity to prescribe and agree to the required
corrective actions and applicable time frames for those actions.

November 2001 Joint Full-Scope Examination Resulted in Component Rating Upgrades

A November 2001 joint full-scope examination resulted in upgrades to Commonwealth’s
CAMELS component ratings for capital, asset quality, and management. Despite those
component ratings upgrades, the bank’s CAMELS composite rating remained a 3, largely
because of the bank’s poor earnings, which resulted in a CAMELS component 4 rating.
Examiners noted that the board resolution should not be lifted until the bank attained a
satisfactory rating. Examiners again commented that the CEO continued ―to be heavily involved
in all aspects of the bank and its parent company.‖

During the examination, examiners noted improvement in the bank’s asset quality.
Commonwealth’s classified assets decreased from 45.2 percent during the prior examination to
20.5 percent of tier 1 capital plus the ALLL. In addition, Commonwealth’s holding company
injected $6.5 million to return the bank to well capitalized status. Despite the bank’s improved
asset quality and capital augmentation, examiners determined that the bank’s earnings were
insufficient to support operations and maintain appropriate capital and ALLL levels. Examiners
noted that Commonwealth’s earnings were weak due to its high funding costs, which resulted
from competition for deposits.




                                                 30
Despite the bank’s improved asset quality and capital position, internal control and credit risk
management weaknesses continued to surface. While Commonwealth arranged for a third party
to conduct loan reviews as recommended by examiners, management did not recognize problem
loans or downgrade its loan ratings in a timely manner. Although examiners cited this issue
during the 2000 examination, it was not identified as a repeat finding in 2001.

Examiners also noted several errors on the bank’s Call Report and cited a contravention of
Regulation H’s LTV guidelines and a violation of Regulation Y’s appraisal requirements.
Specifically, examiners identified a situation in which an appraiser sent an appraisal to the
borrower rather than the bank. Also, although not identified as a violation of Regulation Y,
examiners identified another loan for which the appraised value of the collateral matched the
purchase price identically. In our opinion, these issues were possible early indications of
problems with the independence of the bank’s appraisals.

December 2002 Full-Scope Examination Resulted in CAMELS Composite Rating Upgrade
and Release of the Board Resolution

During a December 2002 full-scope examination, FRB Richmond concluded that
Commonwealth’s overall condition was satisfactory, upgraded the bank’s CAMELS composite
rating to 2 (satisfactory), and released the bank from the 2001 board resolution. Each CAMELS
component received a 2 rating, except for the management component rating, which was
downgraded to 3. Examiners again concluded that the CEO dominated policy decisions at
Commonwealth.

The 2 rating for the earnings component represented a double upgrade from the 4 rating assigned
during the previous examination. Examiners noted improvement in the bank’s return on average
assets and net interest margin. FRB Richmond attributed the improvements to longer-term
certificates of deposits repricing at lower rates while Commonwealth received above-average
loan rates.

In the examination report, FRB Richmond noted improvements in the bank’s asset quality and
credit risk management practices. Examiners mentioned that they now considered the bank’s
risk rating system to be reliable. No risk rating downgrades were identified as a result of the
examination and classified assets declined to their lowest level in three years and were beneath
peer averages. Despite improved loan portfolio performance and some risk management
enhancements, FRB Richmond again noted Commonwealth’s need to (1) obtain current financial
information from borrowers to verify their ability to repay, (2) monitor the CRE concentration
risk within the loan portfolio, and (3) incorporate additional factors into the ALLL methodology
to reflect historical losses, special mention loans, and local economic conditions.

In addition, FRB Richmond identified another contravention of Regulation H’s LTV guidelines.
In this instance, the customer received a loan that represented 111 percent of the appraised value
of the collateral. Regulation H established a supervisory LTV limit of 75 percent of the
collateral value for that loan type. Moreover, examiners determined that the internal audit
program needed to be strengthened because it did not cover all of Commonwealth’s high-risk



                                                31
areas. Examiners again noted that policies and procedures did not match the bank’s practices
and that Commonwealth operated outside of many of its own policy guidelines.

FRB Richmond noted that operational, legal, and reputational risks were increasing at
Commonwealth due to weaknesses in the bank’s BSA compliance program, anti-money-
laundering efforts, and monitoring and identification of suspicious activity. As a result of this
examination, the board of directors adopted a board resolution that focused on enhancements to
ensure a sound BSA program. Specifically, the BSA board resolution required Commonwealth
to, among other things, (1) enhance or develop systems to monitor unusual client activity;
(2) implement a ―know your customer‖ statement of policy and internal controls; and (3) revise
and improve internal controls surrounding identification of high-risk activity, account
monitoring, account closures, and due-diligence standards.

January 2004 Full-Scope State Examination Resulted in Management Component Rating
Upgrade

As a result of a January 2004 examination, the State maintained Commonwealth’s satisfactory
CAMELS composite rating and upgraded the bank’s management component rating from 3 to 2.
Examiners highlighted the bank’s well capitalized status and improved earnings performance.
Nevertheless, the examination report highlighted three matters requiring the board of directors’
attention: (1) no internal audits were performed in 2003, (2) the bank’s asset liability
management and loan policies had not been reviewed and approved by the board of directors on
an annual basis, and (3) the ALLL level was deficient based on the level and severity of loan
classifications. Examiners also noted that only one written loan review report was provided to
the bank in 2003, although quarterly reviews had been conducted pursuant to an outsourcing
arrangement. The written loan review report, contained in examination work papers, addressed
the lack of current financial information in Commonwealth’s loan files.

Examiners recommended that the bank hire a full-time internal auditor. In addition to the lack of
audits performed in 2003, examiners also noted that the Audit Committee’s meeting minutes did
not discuss any reports evaluating internal controls. Examiners emphasized that regular review
of the high-risk areas is necessary for a strong system of internal controls. In our opinion, the
failure to conduct regular audits of high-risk activities was another significant warning sign that
Commonwealth’s internal controls were not effective. The bank ultimately hired an internal
auditor in March 2004.

Examiners noted additional management changes that were scheduled to occur in 2004: the
bank’s chief financial officer planned to resign in April, and Commonwealth hired a new senior
lender. However, even with these anticipated changes, the confidential section of the report
again noted that the CEO continued to dominate policymaking and decision-making.

January 2004 Target BSA Examination Released the BSA Board Resolution

As a result of a January 2004 target BSA examination, FRB Richmond released the BSA board
resolution upon concluding that the weaknesses noted during the December 2002 examination
had been corrected.

                                                32
January 2005 Full-Scope Examination Resulted in Satisfactory Ratings

As a result of an FRB Richmond January 2005 full-scope examination, Commonwealth received
a CAMELS composite 2 rating, with each of the CAMELS components also receiving 2 ratings.
FRB Richmond noted minimal problem assets, satisfactory earnings, and adequate capital.
Examiners mentioned that the bank’s capital had recently increased following a stock offering,
and management intended to conduct an additional offering if strong loan demand continued.
The examination report also highlighted that Commonwealth had recently filled the positions of
chief financial officer, controller, and internal auditor. FRB Richmond mentioned that
examiners detected no ―material weaknesses‖ in the lending function, except for the risk
management weaknesses related to the CRE concentration, which are discussed below.

Despite the satisfactory ratings, FRB Richmond noted that Commonwealth’s weak credit and
market risk management practices required the immediate attention of the board of directors.
Specifically, examiners determined that weak risk management practices concerning the high
concentration of CRE loans persisted. FRB Richmond noted that Commonwealth’s CRE
concentration was 576 percent of tier 1 capital plus the ALLL. Based on Commonwealth’s
elevated CRE concentration, examiners recommended that management and the board of
directors implement the following credit risk management enhancements: (1) adopt limits for
CRE concentrations, (2) formalize a concentration analysis process, and (3) conduct annual
stress testing of the CRE portfolio. According to the examination report, examiners expected
that Commonwealth would formally address these issues and other weaknesses, including
detailing appraisal review procedures, in its loan policy.

Despite the prior release of the BSA board resolution in 2004, examiners noted a series of issues
related to the BSA program. Examiners noted that the identification and reporting of suspicious
activity would be enhanced by the bank’s adopting a ―know your customer‖ policy. This
recommendation was previously contained in the BSA board resolution, which suggests that the
release of the enforcement action may have been premature because a key component of the
enforcement action remained unresolved. Examiners also recommended several enhancements
to the BSA compliance program, including (1) providing additional discussion details regarding
SARs in the board minutes, and (2) expanding internal audit testing to cover the integrity of
monitoring reports.

Based on applicable criteria, the bank’s next full-scope examination should have commenced by
March 2006, but it did not start until October 2006. The August 2006 FRB Richmond target
examination discussed below failed to satisfy either the examination frequency or scope
guidelines. At the time, SR Letter 97-8 required an on-site full-scope examination at least once
during each 12-month period, unless an institution had less than $250 million in total assets and
met certain conditions. If those conditions were met, full-scope examinations could occur every
18 months. Commonwealth had more than $250 million in total assets in 2005, so the bank did
not qualify for the 18-month full-scope examination cycle for insured depository institutions.
FRB Richmond materials we reviewed acknowledged the failure to satisfy the examination
requirements.




                                               33
August 2006 Liquidity Target Examination Determined Satisfactory Liquidity Risk
Management

In August 2006, FRB Richmond initiated a liquidity target examination because of the bank’s
high level of loan growth since the January 2005 full-scope examination and its resulting reliance
on noncore funding. Examiners noted that Commonwealth’s reliance on noncore funding was
―well in excess of peer comparisons.‖ FRB Richmond concluded that Commonwealth’s
liquidity risk management remained satisfactory and appropriate given the bank’s funding
strategy. Examiners recommended that the bank enhance its contingency funding plan to
provide realistic options in the event that market-based funding solutions became unavailable.

October 2006 Full-Scope State Examination Retained a Satisfactory CAMELS Composite
Rating

Beginning in October 2006, the State conducted a full-scope examination that resulted in a
CAMELS composite 2 rating. The State upgraded the bank’s CAMELS component ratings for
capital, earnings, and sensitivity from 2 to 1. Asset quality, liquidity, and management
components received 2 ratings. Overall, examiners considered the bank to be in satisfactory
condition. Examiners attributed the capital upgrade to a $36.5 million injection from the holding
company during the previous 12 months to support branch expansion and loan growth. In
addition, strong earnings resulted in the bank’s return on average assets exceeding its peer group,
although the bank’s cost of funds also remained above peer due to local competition for deposits.

Despite strong capital and earnings performance, classified assets increased from $1.2 million
during the January 2005 full-scope examination to $8.3 million. The State identified multiple
credit risk management weaknesses, some of which had been identified during previous
examinations. Examiners noted that not all nonaccrual loans were reviewed and reported to the
board and recommended incorporating procedures into the bank’s Loan Policy to monitor all
nonaccrual loans. In addition, the bank failed to charge off overdrafts in a timely manner.
Further, examiners identified numerous loan file documentation exceptions, such as missing or
stale borrower financial information and cash flow analyses. The State noted that internal loan
review was generally not performed. Although Commonwealth established limits on its credit
concentrations, examiners noted that these guidelines had not been incorporated into the bank’s
Loan Policy.

November 2007 Full-Scope Examination Retained a Satisfactory CAMELS Composite
Rating

In November 2007, FRB Richmond began a full-scope examination that resulted in a CAMELS
composite rating of 2. FRB Richmond preserved all of the bank’s previously assigned
component ratings except for the sensitivity component, which examiners downgraded from 1 to
2. Although examiners determined that risk management practices were generally satisfactory,
they concluded that the bank’s risk management infrastructure had not kept pace with the bank’s
growth. Among other things, they identified that credit risk and internal audit required the
immediate attention of the board of directors.


                                                34
Examiners noted that strong earnings and holding company support augmented the bank’s capital
position. Bankshares provided $18 million in capital support to the bank in 2006. Examiners
mentioned that the bank’s capital and liquidity would support management’s aggressive growth
plans. Additionally, FRB Richmond determined that Commonwealth had a manageable level of
problem assets.

As a result of the examination, FRB Richmond identified a significant deficiency related to loan
administration. The examination report listed improving the controls surrounding CLD
disbursements as the first matter for the directors’ attention, but the examination report did not
describe the findings that led to the required action. Examination work papers indicated that
Commonwealth’s decentralized funding process for CLD loans lacked reasonable oversight.
Section 1000.1 of the CBEM outlines the Federal Reserve Board’s expectations for examination
reports. An examination report should be ―a comprehensive summary supervisory report‖ that
discusses ―each of the major business risks.‖ In our view, FRB Richmond’s examination report
failed to meet this standard. Given the importance of mitigating credit and fraud risk by assuring
that funds disbursed for construction purposes were used appropriately and timely, we believe
that this finding warranted a more thorough explanation in the examination report and
represented another warning sign concerning the effectiveness of the bank’s internal controls.

Examiners identified ―an inordinate number of loans‖ with missing or stale financial
information. As a result, FRB Richmond expected Commonwealth to establish processes to
ensure timely receipt and analysis of borrowers’ current financial statements and identify
documentation exceptions. The examination report identified this finding as a repeat deficiency
from the previous State examination, but failed to mention that this finding had been identified
during multiple previous examinations.

Additionally, during the examination, examiners noted numerous credit risk management
deficiencies that required corrective action. FRB Richmond acknowledged that ―borrowing
relationships continue to increase in size and complexity.‖ Examiners sought to address this
increasing complexity by recommending that the bank improve its loan approval process and
adjust the scope of its loan review activities. Examiners recommended (1) incorporating cost
analysis and feasibility studies for CRE loans, (2) identifying the source of the LTV calculations
included in loan presentation summaries, (3) enhancing loan approval presentations by
incorporating analysis of the contingent liabilities of guarantors, (4) incorporating global cash
flow analysis into annual loan reviews, (5) committing adequate resources to loan review, and
(6) conducting annual loan reviews of all borrowing relationships of $1 million or more. In
addition to these credit-related recommendations, FRB Richmond noted that Commonwealth
needed to (1) strengthen the appraisal review process of CLD loans to ensure adequate collateral
coverage, and (2) develop systems to effectively identify critical documentation exceptions.
Despite the significant and pervasive weaknesses noted during the examination and a CRE
concentration well above levels indicative of a potentially significant exposure to CRE
concentration risk, FRB Richmond determined that the bank achieved general compliance with
the guidance contained in SR Letter 07-01.

In addition, FRB Richmond noted that Commonwealth’s internal audit program provided
insufficient coverage of the bank’s high-risk areas. Examiners determined that the internal audit

                                                35
program needed additional qualified resources because it had insufficient staffing to perform
specialized audits, such as information technology, BSA, and interest rate risk. Examiners
recommended that management add staff to the internal audit function or outsource a portion of
the bank’s internal audit to a third-party vendor. Examiners also recommended that the CEO
permit an executive session at Audit Committee meetings to allow for discussion of findings
without bank management present.

FRB Richmond also raised concerns about weaknesses in the bank’s BSA compliance program.
FRB Richmond expected Commonwealth to expand transaction testing conducted as part of the
BSA audit to evaluate the bank’s suspicious activity monitoring capabilities and reporting
systems.

In our opinion, the significant credit risk management issues noted during this examination
warranted, at a minimum, component ratings downgrades to asset quality and management.
Further, the scope and severity of the internal control and credit risk management issues noted
during this examination also warranted an informal enforcement action in the form of an MOU.

September 2008 Full-Scope State Examination Resulted in a CAMELS Composite
Downgrade and a Board Resolution

As a result of a September 2008 full-scope examination, the State downgraded the bank’s
CAMELS composite rating to 3. All component ratings received downgrades, except for
liquidity and sensitivity, which both remained a 2. The bank’s CAMELS component rating for
earnings received a triple downgrade from 1 to 4, and asset quality received a double downgrade
from 2 to 4. The CAMELS component ratings for capital and management were downgraded to
2 and 3, respectively. State examiners characterized the board of directors’ and management’s
oversight as less than satisfactory, primarily due to Commonwealth’s weak credit risk
management practices. According to the State, the bank’s focus on loan growth overshadowed
the need for effective credit administration and underwriting practices. In the confidential
section of the examination report, the State noted the CEO’s dominance and control over the
institution.

The State determined that Commonwealth’s asset quality had deteriorated significantly due to a
sharp increase in classified assets and credit risk management weaknesses. Classified assets
increased by almost 900 percent, from $8 million during the prior examination to approximately
$80 million. During the examination, classified assets represented 65 percent of tier 1 capital
and the ALLL. Examiners noted that management appeared hesitant to recognize the severity of
problems in the loan portfolio, as evidenced by the large number of loans downgraded during the
examination. Due to the bank’s inaccurate identification of risk in the loan portfolio,
Commonwealth increased its ALLL by $20 million to make it commensurate with the risk of
loss in the loan portfolio during the third quarter 2008.

State examiners noted that the bank’s CRE loan concentration increased to 609 percent of total
risk-based capital. State examiners recommended that the bank segment the loan portfolio by
type to improve its CRE credit risk management practices. Examiners also identified numerous
credit administration deficiencies, including (1) ―voluminous‖ loan file documentation

                                               36
exceptions; (2) lack of current borrower financial statements; (3) lack of global cash flow
analysis for borrowers; (4) missing summary information for leased properties concerning
tenants, anticipated rents, and lease terms; (5) lack of change-in-terms agreements and purposes
of loan renewals in loan files; and (6) lack of independent inspection reports in construction draw
files.

With respect to internal controls, State examiners noted that loan officers could sign loan
disbursement checks, conduct inspections on construction projects, and authorize draw requests
for loans they originated, representing a significant weakness in key controls designed to prevent
fraud. Examiners recommended that the bank develop controls to mitigate its operational and
reputational risks in this area. In addition, the State noted that the internal audit program
continued to require additional resources. Further, the State identified three appraisals that
violated Regulation Y’s requirements. For BSA program transaction monitoring purposes, the
State recommended that Commonwealth transition from manual processes to automated systems
to monitor suspicious activity.

As a result of the examination, the State and FRB Richmond implemented a joint informal
enforcement action by recommending that the bank’s Board of Directors adopt a board
resolution to address Commonwealth’s weaknesses. Commonwealth’s board of directors
adopted a board resolution that required the board members to assess management’s
qualifications and expertise to perform its roles and responsibilities. The board resolution
required the bank to perform a written analysis prescribing specific actions to strengthen
management and improve supervision by the board of directors. The board resolution also
required that Commonwealth (1) develop an ongoing process to review all problem loans to
accurately determine potential losses, (2) ensure that the internal loan risk rating process results
in timely and accurate loan grades, and (3) maintain an adequate ALLL. We believe, however,
that the reemergence or continuation of previously noted weaknesses warranted a formal
enforcement action, in the form of a written agreement, to clearly convey the need for urgent
action in resolving these recurring and fundamental weaknesses.19 In addition, the fact that
written agreements are publicly disclosed enforcement actions might have served to motivate the
board of directors and management to resolve the bank’s weaknesses.

Although the State recommended that the bank establish effective internal controls to govern the
funding of loan disbursements, the independence of project inspections, and the authorization for
draw requests, FRB Richmond and the State did not address this recommendation in the joint
board resolution. We believe that this recommendation warranted inclusion in the enforcement
action due to the significance of the findings.

June 2009 Target Examination Maintained the CAMELS Composite 3 Rating but Resulted
in Changes to Component Ratings

In June 2009, FRB Richmond conducted a target examination to evaluate Commonwealth’s
compliance with the board resolution and its progress addressing previously noted credit risk

    19
       CBEM section 5040.1 indicates that a written agreement is appropriate ―when circumstances warrant a less
severe form of formal supervisory action.‖ The ―less severe‖ comparison refers to other formal enforcement
actions, including cease-and-desist orders and temporary cease-and-desist orders.

                                                       37
management weaknesses. The target examination also assessed the bank’s asset quality and
liquidity position. The target examination maintained the bank’s CAMELS composite and
management component 3 ratings, but downgraded the component ratings for capital and
liquidity to 3. The asset quality and sensitivity ratings remained 4 and 2, respectively, but FRB
Richmond upgraded the bank’s earnings component rating from 4 to 3.

Examiners noted that the condition of the loan portfolio had deteriorated since the previous
examination and that the ALLL was underfunded by $3 to $4 million. Examiners acknowledged
Commonwealth’s progress addressing many of the weaknesses noted during the previous
examination. Nevertheless, risk management remained less than satisfactory. Specifically,
examiners noted that credit risk management practices related to the bank’s CRE loan
concentration continued to require improvements.

FRB Richmond noted that Bankshares had provided $15 million to Commonwealth during the
first quarter of 2009 to augment its capital position. Examiners anticipated that further asset
quality deterioration would eliminate the benefits to be derived from this capital injection.
Further, examiners concluded that capital levels were not commensurate with the risk in the loan
portfolio, particularly given the bank’s CRE loan concentration. Examiners noted that ―capital
preservation has become critical.‖ In addition, examiners recommended that Commonwealth
reduce its reliance on noncore funding sources because this reliance significantly increased the
bank’s inherent liquidity risk. FRB Richmond required the bank to develop, implement, and
submit a plan to reduce its liquidity risk that identified specific target ratios.

We believe that FRB Richmond appropriately accelerated the examination cycle to conduct this
examination given the deterioration in the bank’s financial condition and the risk management
concerns identified during the prior examination. However, in our opinion, the examination
report did not sufficiently support the component upgrade for earnings. The examination report
only discussed the bank’s earnings to note that the current earnings would cover the additional
$3 to $4 million provision expense and would not result in a net loss for the second quarter. In
our view, avoiding further losses did not warrant a component rating upgrade, especially given
the reasonable likelihood that asset quality deterioration would continue to strain earnings.

October 2009 Full-Scope Examination Resulted in CAMELS Composite and Component 5
Ratings and Initiated a Written Agreement

As a result of the October 2009 FRB Richmond full-scope examination, examiners downgraded
Commonwealth’s CAMELS composite and all component ratings to 5. The transmittal letter to
the board of directors accompanying the examination report highlighted examiners’ conclusion
that the board of directors and management ―have been negligent in their duty to manage the
affairs of the institution in a safe and sound manner‖ and ―risk management practices,
particularly with regard to credit and internal audit, are in dire need of attention.‖ Equally
significant, examiners noted that management used a series of unsafe and unsound banking
practices to mask the bank’s financial condition. Because of these findings, FRB Richmond
required the bank to conduct an assessment of the structure of senior management and the board
of directors. The purpose of the assessment was to assure that Commonwealth had adequate
staffing and oversight to manage the institution in a safe and sound manner.

                                                38
Asset Quality Deteriorated Further

Commonwealth had experienced further asset quality deterioration since the target examination
completed in August 2009. Classified assets increased to 178 percent of tier 1 capital and the
ALLL, from 94 percent during the previous target examination. Examiners concluded that loan
administration weaknesses and poor compliance with guidance for CRE loans contained in SR
Letter 07-01 were major contributing factors to the decline in asset quality. Further, examiners
required Commonwealth to refile its third quarter 2009 Call Report upon concluding that
Commonwealth underfunded the ALLL by $20 million.

Pervasive Credit Risk Management and Internal Control Issues Included Unsafe and Unsound
Banking Practices

The examination resulted in numerous matters requiring the immediate attention of the board of
directors, particularly related to credit risk management and internal controls. Many of the
findings repeated issues and concerns raised during prior examinations. Specifically, examiners
identified significant and pervasive weaknesses related to the bank’s (1) appraisal review
function, (2) problem loan recognition and reporting of the status of each borrowing relationship,
(3) proper and timely identification of troubled debt restructurings, (4) charge-off of loan
balances in excess of the fair value of collateral, (5) ALLL methodology, and (6) compliance
with risk management recommendations contained in SR Letter 07-01 for CRE loan
concentrations. The report once again highlighted the bank’s unacceptable level of
documentation exceptions in customer loan files; the continued weakness of the internal audit
program, including management’s hesitancy to respond to Audit Committee recommendations;
and the need for appropriate control and documentation of collateral draws and releases. We
believe that FRB Richmond responded appropriately by downgrading the bank’s CAMELS
composite and all component ratings to 5 to send a clear message to the senior management and
the board of directors concerning the severity of its findings.

The examination report noted particular concern with the unsafe and unsound practices
management used to mask the past-due status of criticized and classified loans. Despite the
prominence of these findings in the examination report and the transmittal letter’s admonishment
that these practices constituted ―a serious matter and must cease immediately,‖ the examination
report provided minimal context for the findings. The examination report included a bulleted list
containing a phrase to describe each unsafe and unsound practice, but provided no additional
description concerning how the practices developed, the employees involved, or the potential
risks and ramifications associated with the practices. Our review revealed that examiner work
papers provided additional details surrounding these findings that were not incorporated into the
examination report. In our view, the examination report failed to meet CBEM section 1000.1
requirements for a thorough discussion of applicable business risks. We believe that the report
should have provided the board members with the details of the situation.

Assessment of Large, Complex Borrowing Relationship Resulted in a SAR Filing

The examination report failed to describe FRB Richmond’s concerns related to the relationship
between a senior loan officer who was a former FRB Richmond examiner and a specific

                                               39
borrower. Upon receiving a tip from a bank employee, examiners scrutinized one large, complex
borrowing relationship and determined that the loan officer was ―excessively accommodating‖ to
the borrower. In addition, FRB Richmond examiner work papers outlined a number of unsafe
and unsound practices connected to this relationship, including loan proceeds that were disbursed
to one entity in the relationship but that actually benefited another related entity, and some of the
loan proceeds were used to service debt at another institution. This represented an inappropriate
use of loan funds given the purpose of the loan. FRB Richmond used a BSA specialist to review
the senior loan officer’s deposit accounts at Commonwealth and the borrower’s deposit accounts
at another local institution for signs of potentially suspicious activity. Despite the concerns
noted in the examiner work papers, the examination report, including the confidential section,
did not describe this large, complex customer relationship; the risks associated with such
relationships; or examiners’ suspicions of insider abuse. We believe that these findings and
concerns about suspicious activity warranted thorough treatment in the examination report,
especially given examiners’ prior concerns noted in 2007 over increasingly complex borrower
relationships.

Further, we believe that FRB Richmond’s review of the senior loan officer’s deposit accounts at
Commonwealth and the loan customer’s deposit accounts at another local institution could not
offer a reasonable assurance that insider abuse was not occurring. In our opinion, FRB
Richmond should have required the bank to immediately hire a forensic accountant to review the
bank’s books and records to determine the extent of unsafe and unsound practices associated
with all large borrower relationships and to assess the bank’s fraud risk, especially since FRB
Richmond examiners had only scrutinized one of the bank’s many large complex borrowing
relationships.

FRB Richmond recommended that Commonwealth file a SAR on the senior loan officer given
FRB Richmond’s suspicions of insider abuse, which the bank did file in February 2010.
Examiners noted, however, that the SAR contained a technical error—it transposed the senior
loan officer’s first and last names—and provided a ―bare minimum‖ description of the facts and
circumstances surrounding the situation. One FRB Richmond examiner speculated that the
technical error may have been a deliberate attempt to hinder law enforcement officials’ ability to
locate the SAR when searching for the employee’s last name. Section 5020.1 of the CBEM
outlines the Federal Reserve Board’s expectations for reporting suspected criminal violations,
including how to handle situations in which a bank submits an inadequate SAR or fails to file a
report. In our opinion, FRB Richmond should have followed those expectations upon noting the
deficient filing by requiring an amended SAR filing or directly filing the SAR itself, particularly
given the weaknesses previously identified in the bank’s BSA compliance program and the
possibility that the technical error may have been deliberate. When the Office of Inspector
General questioned why FRB Richmond did not file a SAR, examiners raised concerns about the
SAR filer ―safe harbor‖ provision not applying to a Reserve Bank SAR filing.20 We believe that
an amended SAR or a Reserve Bank SAR filing would have been consistent with the CBEM and
would have resulted in a more effective description of the situation for law enforcement officials.


    20
        31 U.S.C. 5318(g)(3) generally provides protection from civil liability for all reports of suspicious
transactions made to appropriate authorities, including supporting documentation, regardless of whether such reports
are filed pursuant to the SAR instructions.

                                                        40
Certain FRB Richmond Examination Staff Should Have Consulted with the Local Ethics Officer

During our interviews, multiple FRB Richmond examination employees involved in this
examination referred to the former FRB Richmond examiner, who served as one of the bank’s
senior loan officers, as a ―friend‖ or colleague. In our opinion, these relationships coupled with
the fact that the former FRB Richmond examiner had possibly engaged in suspicious activity,
suggests that the examination staff, at a minimum, should have consulted with FRB Richmond’s
ethics officer regarding whether recusals were appropriate. FRB Richmond interviewees
mentioned that the Reserve Bank did not have standard protocols for addressing situations
presenting an appearance of a conflict-of-interest. However, section 5.1 of FRB Richmond’s
code of conduct indicates that

       an employee should avoid any situation that might give rise to an actual conflict
       of interest or even the appearance of a conflict of interest . . . Where the
       circumstances might cause a reasonable person to question the employee's
       impartiality or otherwise give rise to an appearance of a conflict of interest, the
       employee should not participate in a matter unless he or she has informed the
       Bank of the situation and received authorization from the Bank’s Ethics Officer.

We believe that consultations with FRB Richmond’s ethics officer would have allowed the ethics
officer to fully evaluate the facts and circumstances surrounding the relationships between the
former employee and the current examination staff and determine whether recusal or any other
corrective action was necessary.

Additional Significant Internal Control Weaknesses

Examiners also identified internal control deficiencies surrounding basic practices in the lending
function, some of which were brought to the attention of examiners by a bank employee.
Examiners concluded that loan officers had authorized general ledger tickets to cover loan
payments for troubled borrowers and identified three instances in which a loan officer authorized
customer accounts to be overdrawn in order to purchase cashier’s checks. Examiners also noted
an instance in which a loan officer authorized the purchase of a cashier’s check with a personal
check drawn on another institution, against bank policy. The check was later returned due to
insufficient funds. We believe that the bank’s internal control weaknesses further increased
Commonwealth’s risk profile by presenting the opportunity for key employees to engage in
unsafe and unsound practices.

Examination Resulted in a Written Agreement

As a result of this examination, examiners determined that the bank was not in compliance with
the majority of the provisions of the 2009 board resolution and initiated a formal enforcement
action in the form of a written agreement. The written agreement was not executed until July
2010, after the next examination (which had been accelerated) commenced. We believe that the
enforcement action should have been implemented in a more timely manner to quickly address
the significant problems identified during the examination.



                                                41
The 2010 written agreement expanded the provisions of the 2009 board resolution and, among
other things, required (1) a written plan to strengthen credit risk management, to include loan
portfolio limits and stress testing; (2) written lending and credit administration programs
addressing underwriting standards and segregation of duties, respectively; (3) a charge-off of all
assets classified as ―loss‖; (4) a written program to maintain an adequate ALLL and enhanced
ALLL methodology; (5) a written capital plan that accounted for the volume of classified loans,
loan concentrations, ALLL requirements, current and projected asset growth, and projected
retained earnings; and (6) a written liquidity and funds management plan designed to improve
management of the liquidity position.

We believe that the board of directors’ and management’s failure to operate the institution in a
safe and sound manner allowed pervasive credit risk management and internal control
weaknesses to remain unresolved for far too long and significantly increased the bank’s fraud
risk. In our opinion, the unsafe and unsound practices noted during this examination evidenced
management’s deliberate effort to mask Commonwealth’s true financial condition. We believe
that FRB Richmond examiners failed to address the bank’s persistent weaknesses and detect
management’s similar inappropriate response to asset quality deterioration cited during the 2000
full-scope examination. Specifically, the 2000 examination findings and this examination
evidenced management’s (1) failure to recognize the full extent of its problem loans and (2)
willingness to extend additional loans to troubled borrowers. In our opinion, the fact that these
issues evoked a similar inappropriate response to asset quality deterioration should have
influenced FRB Richmond’s supervisory approach, especially since the unsafe and unsound
practices noted during this examination evidenced management’s deliberate effort to mask the
bank’s condition. FRB Richmond examiners, however, did not review the 2000 full-scope
examination or the 2001 board resolution materials as part of this examination.

Section 5040.1 of the CBEM indicates that the Federal Reserve Board may use its cease-and-
desist order (C&D) authority, among other circumstances, after noting (1) a violation of law or
regulation or (2) an unsafe and unsound business practice. The CBEM also indicates that a C&D
can be used to compel an affirmative action to correct a violation or practice. Based on our
review of this examination report and FRB Richmond’s supporting work papers, examiners
suspected potential violations of law and the examination report cited multiple unsafe and
unsound business practices. We believe that FRB Richmond should have recommended that the
Federal Reserve Board adopt a C&D given the severity of the situation and the criteria under
which C&D authority may be exercised. We recognize that this authority is reserved for unique
circumstances; however, we believe that this recommendation was warranted under the
circumstances. We believe that the C&D also should have formalized our finding mentioned
above concerning the need for a forensic investigation of all large borrower relationships and
communicated the bank’s need to report any suspicious activity via SAR filings.

FRB Richmond required an independent assessment regarding the structure of senior
management and the board of directors, including its committees. FRB Richmond anticipated
that the assessment would result in adequate staffing, with the requisite ability, experience, and
other qualifications to competently perform its duties, and oversight to manage the institution in
a safe and sound manner. An independent assessment is a standard supervisory response when
examiners lose confidence in management. We believe that FRB Richmond should have


                                                42
recommended a removal order for the CEO. Section 5040.1 of the CBEM outlines the Federal
Reserve Board’s removal authority under 12 U.S.C. 1818(e). Among other things, the Federal
Reserve Board may initiate a removal order when an ―institution-affiliated party‖ directly or
indirectly (1) violates any law or regulation, (2) engages in any unsafe and unsound practice, or
(3) breaches a fiduciary duty. Accordingly, we believe that FRB Richmond should have
recommended a removal order because the CEO’s dominant oversight contributed to the unsafe
and unsound practices noted during the examination. In addition, examiners’ conclusion that the
board of directors was negligent in its duty to operate the institution in a safe and sound manner
coupled with the CEO’s role as chairman of the board of directors further supports a removal
order based on a possible breach of a fiduciary duty.

May 2010 Joint Full-Scope Examination Retained the CAMELS Composite 5 Rating

A joint full-scope examination that began in May 2010 maintained the bank’s CAMELS
composite and component 5 ratings. FRB Richmond and the State accelerated this examination
due to the severity of the findings during the prior examination. Despite $19 million in capital
support from the holding company over the course of the previous year, examiners concluded
that the bank’s capital levels were not commensurate with its risk profile. The examination
report characterized the bank’s condition as critically deficient and identified asset quality
deterioration as the primary impediment to improved condition. Because the written agreement
had not been finalized, examiners did not assess compliance with the board resolution.

Asset quality deteriorated further as classified assets increased to 222 percent of tier 1 capital and
the ALLL. The associated provision expenses negatively affected earnings and capital.
Examiners identified continued credit risk management weaknesses related to the bank’s internal
loan risk ratings, inconsistent preparation of global cash flow analyses, and loan file
documentation exceptions. Examiners also noted that inadequate risk management practices
related to the bank’s significant exposure to CRE loan concentrations persisted, particularly
given the lack of CRE loan portfolio stratification and stress testing. In March 2010,
Commonwealth hired a CCO to address its credit administration weaknesses. Examiners noted
that corrective actions would take time to become effective due to the high level of classified
assets and the volume of credit administration weaknesses.

Prior to this examination, in March 2010, Commonwealth completed the independent
management study required by the October 2009 examination. The study, performed by an
independent third party, recommended separating the responsibilities of the CEO and chairman
of the board of directors to allow the directorate to speak more freely and improve its oversight.
In April 2010, the CEO resigned from the chairman responsibilities at the bank and the holding
company. Our interviews indicated that FRB Richmond anticipated that the study would
recommend the removal of the CEO. The study also concluded that one of the senior loan
officers, the former FRB Richmond employee, did not have the core skills, competencies,
experience, and qualifications to perform his role and recommended that the bank either make
significant revisions to his current role or arrange for a separation from the bank. This individual
left the bank in December 2010. In our opinion, FRB Richmond should have recommended a
removal order for the CEO based on the prior examination to (1) facilitate a more timely



                                                 43
management change and (2) eliminate the possibility that the independent assessment might
conflict with FRB Richmond’s preferred course of action.

October 2010 Target Examination Focused on Asset Quality and the Financial Condition
of the Bank

FRB Richmond’s asset quality and overall financial condition target examination that began in
October 2010 maintained the bank’s CAMELS composite and component 5 ratings. The
examination also evaluated Commonwealth’s compliance with the 2010 written agreement.
Examiners noted that Commonwealth’s asset quality was critically deficient due to the high level
of problem assets, particularly nonaccrual loans. Provision expenses associated with the asset
quality deterioration resulted in capital ratios declining below well capitalized status for PCA
purposes as of September 30, 2010.

Examiners once again recommended enhancements to the bank’s credit risk management of CRE
loans, consistent with guidance contained in SR Letter 07-01. Specifically, examiners noted that
(1) the board of directors did not review sufficient information concerning CRE concentrations,
(2) management did not provide reports on individual industry trends or appropriately stratify the
CRE loan portfolio for monitoring purposes, and (3) the bank did not perform any stress testing
on individual loans or its overall portfolio.

As a result of this examination, examiners uncovered additional practices that the bank used to
mask the actual status of problem assets. Specifically, examiners determined that the bank had
financed multiple purchases of its OREO with minimal financial analysis of the borrower and on
―extremely generous‖ terms. These purchases allowed the bank to remove OREO from its books
and originate a performing loan collateralized by the property. Further, the bank used potentially
deceptive accounting practices in its treatment of these properties by booking OREO properties
that required improvements at their as-complete value, rather than at their fair market value. As
a result, examiners recommended that the bank write down the value of several properties.
Additionally, management valued several OREO properties without a current appraisal. This
practice also exposed the bank to further write-downs. When the bank did order new appraisals
on foreclosed properties, it did not require an independent appraisal review. Examiners
identified multiple appraisals that were inconsistent with legal requirements that originated from
the same appraiser. Although examiner work papers specifically noted that this appraiser was no
longer permitted to perform appraisals for the bank based on FRB Richmond’s recommendation,
the examination report did not mention this restriction.

In addition to questionable accounting and appraisal practices, Commonwealth funded loans to
improve its OREO properties in its portfolio. Examiners determined that the bank disbursed
construction loan proceeds for three properties either fully at closing or without evidence that
any work had been performed. In one instance, examiners subsequently conducted a site visit
and determined that the expected construction had never taken place. The bank filed a SAR on
that borrower as a result. In the other two instances, we were not able to locate SAR filings.
Section 5020.1 of the CBEM outlines the conditions under which a SAR should be filed. It
states that a filing should occur if an examiner ―uncovers a situation that is known or suspected
to involve a criminal violation.‖ In our opinion, the two situations not covered by SARs should

                                                44
have raised reasonable suspicions of possible criminal activity, even without conducting site
visits. In our estimation, FRB Richmond should have referred these situations to
Commonwealth for further investigation and SAR filings as warranted. Although examiner
work papers noted that controls over disbursements was a repeat finding from the previous
examination, the finding was not identified as such by FRB Richmond in the examination report.
Further, we noted that controls over loan disbursements had been raised by examiners on
multiple prior examinations.

This examination demonstrated that the bank continued to engage in unsafe and unsound
practices to mask its true financial condition. We believe that these practices support our
position that FRB Richmond should have implemented a C&D based on the October 2009 full-
scope examination. Nevertheless, FRB Richmond did not adjust its enforcement strategy.

Following this examination, FRB Richmond met with the members of the board of directors who
were not Commonwealth employees to encourage them to request that the CEO retire. In
December 2010, the CEO retired and the CCO became the interim CEO. The bank removed the
CEO’s interim designation in May 2011. In our opinion, although FRB Richmond acted
appropriately to encourage the removal of the CEO, we believe that the removal should have
occurred sooner.

May 2011 Full-Scope Examination Retained the CAMELS Composite 5 Rating

As a result of a May 2011 full-scope examination, FRB Richmond maintained Commonwealth’s
CAMELS composite 5 rating. FRB Richmond noted that the bank’s overall condition continued
to deteriorate and that failure was likely. Examiners noted that asset quality deterioration and
significant provision expenses had eroded capital and adversely affected earnings performance.
As of June 30, 2011, Commonwealth became critically undercapitalized due to $26 million in
provision expenses taken during the year.

Commonwealth’s asset quality remained critically deficient as the level of classified assets at the
examination increased to 386 percent of tier 1 capital and the ALLL. Examiners noted
Commonwealth’s efforts to identify and address the full extent of problem loans in the bank’s
portfolio and that credit risk management had improved following the implementation of new
lending policies and procedures.

Due to losses associated with the bank’s deteriorating asset quality, earnings performance
remained critical. Examiners noted that the bank experienced a net loss of $50 million in 2010
as a result of $52 million in provision expenses. The bank’s expenses also increased in 2010 due
to personnel and administrative costs associated with the bank’s loan portfolio. Examiners did
not expect these expenses to decline in 2011.

Examiners noted that the bank’s management submitted a capital restoration plan to raise $100
million through issuance of capital stock. Although this amount would have been sufficient to
raise the bank to well capitalized PCA levels, examiners concluded that Commonwealth would
need to raise more capital to address future losses. Commonwealth failed to raise any capital.
Therefore, the State closed the bank on September 23, 2011, and appointed the FDIC as receiver.

                                                45
Conclusions, Lessons Learned, and Recommendations
Commonwealth failed because of the convergence of several factors, including corporate
governance weaknesses, an aggressive growth strategy that resulted in concentration risk,
insufficient credit risk management practices, and pervasive internal control weaknesses. These
factors, combined with deteriorating real estate markets, led to rapid asset quality deterioration.
Commonwealth failed to acknowledge the full extent of problem loans in its portfolio and
adequately reserve against prospective losses. It also engaged in unsafe and unsound banking
practices to mask its financial condition. Mounting losses depleted earnings and eroded capital,
which prompted the State to close Commonwealth and appoint the FDIC as receiver on
September 23, 2011.

With respect to supervision, FRB Richmond did not comply with the examination frequency
guidelines for the time frame we reviewed, 2000 through 2011. Specifically, the 2006 full-scope
examination did not occur within a year of the prior full-scope examination as required by
SR Letter 97-8.

Fulfilling our mandate under Section 38(k) of the FDI Act provides an opportunity to determine,
in hindsight, whether additional or alternative supervisory actions could have been taken to
reduce the likelihood of a bank’s failure or a loss to the DIF. Our analysis of FRB Richmond’s
supervision of Commonwealth revealed that FRB Richmond identified the bank’s fundamental
weaknesses during the 2000 examination but did not take early and decisive action to resolve
those weaknesses. Credit risk management was a recurring issue at the bank in subsequent
years. Further, FRB Richmond did not detect management’s similar inappropriate response to
asset quality deterioration noted during the 2000 full-scope examination and repeated during the
October 2009 full-scope examination. We believe that FRB Richmond had multiple
opportunities between 2007 and 2011 to take stronger supervisory action by implementing more
aggressive enforcement actions or downgrading Commonwealth’s CAMELS composite or
component ratings to address the bank’s persistent deficiencies. In our opinion, more forceful
supervisory action could have mitigated the loss to the DIF.

The need for stronger supervisory action has been a consistent theme in our prior failed bank
reviews, as highlighted in our September 2011 Summary Analysis of Failed Bank Reviews.
While this aspect of Commonwealth’s failure is consistent with the overall themes contained in
our prior reports, this material loss review resulted in unique findings. For example, our prior
reports have not identified the need for a Reserve Bank to recommend the use of the Federal
Reserve Board’s C&D authority or removal order authority for management officials. While we
understand that those authorities should only be used when necessary, we believe that the unique
circumstances surrounding Commonwealth’s failure warranted such actions.

We believe that the following findings noted during this material loss review represented unique
circumstances and issues in FRB Richmond’s supervision of Commonwealth:

      In 2009, FRB Richmond examiners did not detect management’s similar inappropriate
       response to asset quality deterioration consisting of (1) failing to acknowledge the bank’s
       problem loans and (2) making additional loans to troubled borrowers, even though

                                                46
       similar issues were raised in FRB Richmond’s 2000 examination and the 2001 board
       resolution. The October 2009 examination also did not address that this similar
       inappropriate response to asset quality deterioration had evolved into a deliberate effort to
       conceal the bank’s financial condition. FRB Richmond’s failure to detect these
       similarities led to an insufficient supervisory response following the 2009 examination.

      Certain FRB Richmond examination reports did not appear to comply with CBEM
       section 1000.1 because those reports failed to adequately address the business risks
       associated with specific findings.

      Specific FRB Richmond examination staff did not consult with the local ethics officer in
       accordance with FRB Richmond’s code of conduct despite the fact that those staff
       members considered a former FRB Richmond examiner employed by the bank in a key
       senior management position, who engaged in potentially suspicious activity, to be a
       ―friend‖ or colleague.

      FRB Richmond did not respond to situations involving potentially suspicious activity in
       accordance with the expectations outlined in CBEM section 5020.1.

We have four recommendations described below to address these issues and improve FRB
Richmond’s and the Federal Reserve Board’s supervisory activities.

Lessons Learned

We believe that Commonwealth’s failure offers lessons learned that can be applied to
supervising banks with similar characteristics and circumstances. Commonwealth’s failure
illustrates (1) the risks associated with consolidating corporate authority in a single individual;
(2) the risks associated with CRE loan concentrations, particularly CLD, and concentrations with
individual borrowers; and (3) the importance of establishing appropriate credit risk management
practices and internal controls prior to pursuing an aggressive growth strategy. Further, this
failure illustrates the importance of assuring that examiners are aware of and consider prior
supervisory actions when assessing an institution and developing a supervisory strategy,
particularly when subsequent enforcement actions are necessary to address issues previously
raised in earlier enforcement actions. The failure also highlights that Reserve Banks need to (1)
assure that bank management resolves risk management weaknesses and internal control
deficiencies, (2) appropriately determine the information that should be contained in an
examination report and convey significant details concerning important findings, and (3) take
aggressive and appropriate supervisory action when previously noted weaknesses continue or
similar behaviors emerge.




                                                47
Recommendations

1. We recommend that the Director of the Division of Banking Supervision and
   Regulation confirms that FRB Richmond’s Senior Vice President of Supervision,
   Regulation, and Credit takes steps to assure that FRB Richmond’s examination reports
   comply with CBEM section 1000.1, to include assessing the Reserve Bank’s examination
   report review process to assure that each step in the review process is necessary and
   valuable.

Section 1000.1 of the CBEM outlines the Federal Reserve Board’s expectations for examination
reports. Examination reports should be ―a comprehensive summary supervisory report‖ that,
among other things, discusses ―each of the major business risks.‖ Our analysis revealed multiple
instances in which FRB Richmond’s examination reports failed to meet this standard. FRB
Richmond examination reports presented report findings at a summary level and, in some
instances, did little to contextualize Commonwealth’s deficiencies.

As an example, a section of the report resulting from the October 2009 full-scope examination
listed a series of phrases to describe unsafe and unsound practices related to masking the full
extent of the bank’s problem loans. However, the Asset Quality section of the report did not
expand on the description of those findings; instead, that section of the report merely referred
back to the prior section of the report that contained the bulleted list without providing any
additional details. In our opinion, this represented a failure by FRB Richmond to communicate
the severity of the circumstances and the need for urgent action. The report provided no context
for how this pervasive effort to hide Commonwealth’s true financial condition developed and
offered no reference point concerning the scope and magnitude of these issues.

During our interviews, FRB Richmond examination staff referred to Commonwealth’s pervasive
internal control weakness as a situation ―like nothing I have ever seen‖ and that it ―would have
taken years to discover all of the problems.‖ The pervasiveness of these issues and their
potential direct impact on financial results should have suggested, at a minimum, the possibility
of a conscious and deliberate effort by management to misrepresent the institution’s actual
financial condition. Nevertheless, the report, including its confidential section, remained silent
on that issue. Because we have not observed similar deficiencies or omissions during our prior
failed bank reviews, we believe that the Director of the Division of Banking Supervision and
Regulation should confirm that FRB Richmond’s Senior Vice President of Supervision,
Regulation, and Credit takes steps to assure that FRB Richmond’s examination reports comply
with CBEM section 1000.1 that include assessing the Reserve Bank’s examination report review
process to assure that each step in the review process is necessary and valuable.

An FRB Richmond examiner provided a possible insight by mentioning that FRB Richmond’s
examination report review process has many layers that provide ―way too many opportunities for
dilution.‖ In our opinion, FRB Richmond’s assessment of the review process should include
discussions with FRB Richmond examination staff at every level. We expect that this
assessment will result in suggestions for improving the current process, including time frames for
implementing those suggested improvements.



                                                48
2. We recommend that the Director of the Division of Banking Supervision and
   Regulation consider defining the circumstances when examination supervisors should
   refer to prior enforcement actions when developing a supervisory strategy for an
   institution that requires an enforcement action.

FRB Richmond staff conducting examinations in 2009 did not appear to be aware of
Commonwealth’s 2001 board resolution. During our review, we learned that current guidelines
for examination preparation require examiners to review the prior full-scope examination. We
did not identify similar guidance for prior enforcement actions. The 2001 board resolution raised
a series of issues that appeared to evidence that management had a similar inappropriate response
to asset quality deterioration that had evolved into a deliberate effort to conceal the bank’s true
condition. The similar inappropriate response included (1) failing to acknowledge the full extent
of the bank’s problem loans, and (2) extending additional credit to problem borrowers.

In our opinion, effective supervision requires awareness of prior enforcement actions to assure
that similar behaviors can be detected. In this situation, management’s similar inappropriate
response to asset quality deterioration was not detected and, therefore, did not appear to
appropriately influence FRB Richmond’s supervisory strategy. We recommend that the Director
of the Division of Banking Supervision and Regulation consider defining the circumstances
when examination supervisors should refer to prior enforcement actions when developing a
supervisory strategy for an institution that requires an enforcement action.

3. We recommend that the Director of the Division of Banking Supervision and
   Regulation assure that (a) FRB Richmond adopts measures to prevent examination
   staff from being assigned to particular reviews without confirming the independence of
   the assigned staff and (b) FRB Richmond’s Senior Vice President of Supervision,
   Regulation, and Credit implements reinforcement training regarding the bank’s code of
   conduct and expectations for handling possible conflicts-of-interest.

One of Commonwealth’s senior lenders was a former FRB Richmond examiner who engaged in
potentially suspicious activity at Commonwealth. This former examiner worked at multiple
institutions in the Norfolk area and satisfied ―cooling off‖ requirements outlined in FRB
Richmond’s code of conduct prior to accepting a position at Commonwealth. FRB Richmond
interviewees mentioned that the significant time period that elapsed between his employment
with the Reserve Bank and Commonwealth mitigated the risk of a possible conflict-of-interest,
since many junior staffers did not know the former FRB Richmond employee. Nevertheless,
certain interviewees who participated in the October 2009 full-scope examination of
Commonwealth referred to the former employee as a ―friend‖ or colleague. In our opinion, these
relationships and the former employee’s possible involvement in potentially suspicious activity
evaluated during that examination suggested that FRB Richmond’s local ethics officer should
have been consulted regarding the requirements of the code of conduct. We believe that
consultations with FRB Richmond’s ethics officer would have allowed the ethics officer to fully
evaluate the facts and circumstances surrounding the relationships between the former employee
and the current examination staff and determine whether recusal or any corrective action was
necessary.



                                                49
Interviewees said that FRB Richmond did not have standard protocols or approaches for
addressing possible conflict-of-interest situations, although, as mentioned above, FRB Richmond
had a code of conduct. This is our first failed bank review that addresses an appearance of
possible conflict-of-interest issues related to former Reserve Bank examination staff. In our
opinion, the Director of the Division of Banking Supervision and Regulation should assure that
FRB Richmond adopts measures to prevent examination staff from being assigned to particular
reviews without confirming the independence of the assigned staff. We also recommend that
FRB Richmond’s Senior Vice President of Supervision, Regulation, and Credit implement
reinforcement training regarding FRB Richmond’s code of conduct and expectations for
handling possible conflicts of interest.

4. We recommend that the Director of the Division of Banking Supervision and
   Regulation issue supplemental guidance reiterating the unique circumstances outlined
   in CBEM section 5020.1 that might warrant the filing of a SAR by a Federal Reserve
   Bank. This guidance should address the applicability of “safe harbor” provisions to
   SAR filings by Reserve Banks.

As a result of the 2009 examination, FRB Richmond encouraged Commonwealth to file a SAR
to address a loan officer’s handling of a large, complex loan relationship. Examiners noted that
the SAR eventually submitted by Commonwealth contained a technical error—it transposed the
loan officer’s first and last names—and the SAR narrative provided a ―bare minimum‖
description of the facts and circumstances surrounding the situation. Section 5020.1 of the
CBEM outlines the Federal Reserve Board’s expectations for reporting suspected criminal
violations, including how to handle situations in which a bank submits an inadequate SAR or
fails to file a report. FRB Richmond did not require an amended filing or file its own SAR in
accordance with section 5020.1, despite acknowledgments by certain examination staff that the
SAR submitted by Commonwealth would be of little use to law enforcement officials.

Certain examination staff also mentioned concerns about the applicability of the SAR filer ―safe
harbor‖ provision to a Reserve Bank SAR filing. Those staff members indicated that FRB
Richmond may not have filed a SAR because of those concerns. In our opinion, guidance is
necessary to reiterate the unique circumstances that warrant SAR filings by Reserve Banks and
also to eliminate any potential concerns among all Reserve Bank examination staff concerning
the applicability of safe harbor provisions to those filings.

Analysis of Comments
We provided our draft to the Division of Banking Supervision and Regulation for review and
comment. The Division Director stated that Banking Supervision and Regulation staff concurred
with the conclusions, lessons learned, and recommendations in the report. The response is
included as Appendix 3.




                                               50
Appendixes
Appendix 1 – Glossary of Banking and Regulatory Terms
Allowance for Loan and Lease Losses (ALLL)

A valuation reserve established and maintained by charges against the bank’s operating income.
As a valuation reserve, it is an estimate of uncollectible amounts that is used to reduce the book
value of loans and leases to the amount that is expected to be collected. The reserve must be
sufficient to absorb probable losses inherent in the institution’s loan and lease portfolio.

Board Resolution

An informal supervisory enforcement action that represents a number of commitments made by a
bank’s board of directors. The commitments are incorporated into the bank’s corporate minutes.

Call Reports

Reports of Condition and Income are commonly known as Call Reports. Every state member
bank is required to file a consolidated Call Report normally as of the close of business on the
last calendar day of each calendar quarter, i.e., the report date.

Cease-and-Desist Order (C&D)

A formal supervisory enforcement action against a financial institution or an institution-affiliated
party that violates a law, rule, regulation, written commitment, or written agreement, or that is
engaged in unsafe or unsound business practice. The order may require a financial institution or
institution-affiliated party to (1) stop engaging in specific practices or violations, or (2) take
action to correct any resulting conditions. The problems at an institution that trigger a C&D, and
the C&D provisions themselves, are more severe than those of a written agreement, which is the
least severe type of formal supervisory enforcement action.

Classified Assets

Loans that exhibit well-defined weaknesses and a distinct possibility of loss. Classified assets
are divided into more specific subcategories, ranging from least to most severe: ―substandard,‖
―doubtful,‖ and ―loss.‖ An asset classified as substandard is inadequately protected by the
current sound worth and paying capacity of the obligor or of the collateral pledged, if any. An
asset classified as doubtful has all the weaknesses inherent in one classified as substandard,
with the added characteristic that the weaknesses make full collection or liquidation highly
questionable and improbable. An asset classified as loss is considered uncollectible and of
such little value that its continuance as a bankable asset is not warranted.




                                                53
Appendix 1 (continued)
Commercial Real Estate (CRE) Loans

Land development and construction loans (including one- to four-family residential and
commercial construction loans) and other land loans. CRE loans also include loans secured by
multifamily property and nonfarm, nonresidential property in which the primary source of
repayment is derived from rental income associated with the property or the proceeds of the sale,
refinancing, or permanent financing of the property.

Concentration

A significant amount of direct or indirect extensions of credit and contingent obligations that
possess similar risk characteristics. Typically, loans to related groups of borrowers, loans
collateralized by a single security or securities with common characteristics, and loans to
borrowers with common characteristics within an industry have been included in homogeneous
risk groupings when assessing asset concentrations.

Construction and Land Development (CLD) Loans; also known as Construction,
Land, and Land Development (CLD) Loans

A subset of commercial real estate loans, secured by real estate (including nonagricultural
vacant land), for (1) on-site construction of industrial, commercial, residential, or farm
buildings; and (2) land development, including preconstruction preparatory work such as laying
sewer and water pipes.

Enforcement Actions

Informal or formal actions the Federal Reserve Board may take, typically after the completion of
an on-site bank examination. Formal enforcement actions consist of written agreements,
temporary cease-and-desist orders, cease-and-desist orders, prohibition and removal orders, and
prompt corrective action directives; informal enforcement actions include commitments, board
resolutions, and memorandums of understanding.

Noncore Funding

Funding that can be very sensitive to changes in interest rates, such as brokered deposits,
certificates of deposit greater than $100,000, federal funds purchased, and borrowed
money.

Other Real Estate Owned (OREO)

Real estate acquired by a lender through foreclosure in satisfaction of a debt. A loan secured by
foreclosed real estate is counted as a nonperforming loan in reporting loan quality in Call
Reports to bank supervisory agencies.


                                                54
Appendix 1 (continued)
Prompt Corrective Action (PCA)

A framework of supervisory actions, set forth in 12 U.S.C. 1831o, for insured depository
institutions whose capital positions have declined below certain threshold levels. PCA is
intended to ensure that action is taken at the time an institution becomes financially troubled, so
that the deposit insurance fund incurs the least possible long-term loss. Depending on a bank’s
capitalization, the capital categories include well capitalized, adequately capitalized,
undercapitalized, significantly undercapitalized, and critically undercapitalized.

Supervision and Regulation (SR) Letters

Issued by the Federal Reserve Board’s Division of Banking Supervision and Regulation to
address significant policy and procedural matters of continuing relevance to the Federal Reserve
Board’s supervisory effort. SR letters are for distribution to supervised institutions as well as
Reserve Banks.

Underwriting

Detailed credit analysis preceding the granting of a loan based on credit information furnished by
the borrower, such as employment history, salary, and financial statements; publicly available
information, such as the borrower’s credit history; and the lender’s evaluation of the borrower’s
credit needs and ability to pay.

Written Agreement

A formal supervisory enforcement action that is generally issued when a financial or an
institution-affiliated party has multiple deficiencies that are serious enough to warrant formal
action or that have not been corrected under an informal action. It is an agreement between a
financial institution and the Federal Reserve Board or a Federal Reserve Bank that may require
the financial institution or the institution-affiliated party to (1) stop engaging in specific practices
or violations, or (2) take action to correct any resulting conditions. The agreement may also
require the financial institution to provide ongoing information, such as progress reports. This
enforcement action is the least severe of the formal enforcement actions.




                                                  55
Appendix 2 – CAMELS Rating System

Under the current supervisory guidance, each institution is assigned a composite rating based on
an evaluation and rating of six essential components of the institution’s financial condition and
operations. These component factors address the

      adequacy of capital
      quality of assets
      capability of management
      quality and level of earnings
      adequacy of liquidity
      sensitivity to market risk

Evaluations of the components take into consideration the institution’s size and sophistication,
the nature and complexity of its activities, and its risk profile.

Composite and component ratings are assigned based on a 1 to 5 numerical scale. The highest
rating, 1, indicates the strongest performance and risk management practices and the least
degree of supervisory concern, while a 5 indicates the weakest performance, inadequate risk
management practices, and the highest degree of supervisory concern.

Composite Rating Definition

The five composite ratings are defined and distinguished below. Composite ratings are based on
a careful evaluation of an institution’s managerial, operational, financial, and compliance
performance, within the framework of the six components listed above.

Composite 1

Financial institutions in this group are sound in every respect and generally have components
rated 1 or 2. Any weaknesses are minor and can be handled in a routine manner by the board of
directors and management. These financial institutions are the most capable of withstanding the
vagaries of business conditions and are resistant to outside influences, such as economic
instability in their trade area. These financial institutions are also in substantial compliance with
laws and regulations. As a result, these financial institutions exhibit the strongest performance
and risk management practices relative to the institutions’ size, complexity, and risk profile and
give no cause for supervisory concern.




                                                 57
Appendix 2 (continued)
Composite 2

Financial institutions in this group are fundamentally sound. For financial institutions to receive
this rating, generally no component rating should be more severe than 3. Only moderate
weaknesses are present and are well within the board of directors’ and management’s capabilities
and willingness to correct. These financial institutions are stable and capable of withstanding
business fluctuations. These financial institutions are in substantial compliance with laws and
regulations. Overall, risk management practices are satisfactory relative to the institutions’ size,
complexity, and risk profile. There are no material supervisory concerns and, as a result, the
supervisory response is informal and limited.

Composite 3

Financial institutions in this group exhibit some degree of supervisory concern in one or more of
the component areas. These financial institutions exhibit a combination of weaknesses that may
range from moderate to severe; however, the magnitude of the deficiencies generally will not
cause a component to be rated more severely than 4. Management may lack the ability or
willingness to effectively address weaknesses within appropriate time frames. Financial
institutions in this group generally are less capable of withstanding business fluctuations and are
more vulnerable to outside influences than those institutions rated a composite 1 or 2.
Additionally, these financial institutions may be in significant noncompliance with laws and
regulations. Risk management practices may be less than satisfactory relative to the institutions’
size, complexity, and risk profile. These financial institutions require more than normal
supervision, which may include formal or informal enforcement actions. Failure appears
unlikely, however, given the overall strength and financial capacity of these institutions.

Composite 4

Financial institutions in this group generally exhibit unsafe and unsound practices or conditions.
These institutions have serious financial or managerial deficiencies that result in unsatisfactory
performance. The problems range from severe to critically deficient. The board of directors and
management are not satisfactorily addressing or resolving the weaknesses and problems.
Financial institutions in this group generally are not capable of withstanding business
fluctuations and may be significantly noncompliant with laws and regulations. Risk
management practices are generally unacceptable relative to the institutions’ size, complexity,
and risk profile. Close supervisory attention is required, which means, in most cases, formal
enforcement action is necessary to address the problems. Institutions in this group pose a risk to
the deposit insurance fund. Failure is a distinct possibility if the problems and weaknesses are
not satisfactorily addressed and resolved.

Composite 5

Financial institutions in this group exhibit extremely unsafe and unsound practices or conditions;
exhibit a critically deficient performance; often contain inadequate risk management practices

                                                58
relative to the institutions’ size, complexity, and risk profile; and are of the greatest supervisory
concern. The volume and severity of problems are beyond management’s ability or willingness
to control or correct. Immediate outside financial or other assistance is needed for the financial
institutions to remain viable. Ongoing supervisory attention is necessary. Institutions in this
group pose a significant risk to the deposit insurance fund, and failure is highly probable.




                                                  59
Appendix 3 – Division Director’s Comments

                      Board of Governors of the Federal Reserve System
                            Division of Banking Supervision and Regulation


  Date:    April 11, 2012
   To:     Anthony J. Castaldo – Associate Inspector General for Inspections and Evaluations
 From:     Michael S. Gibson, Director, Banking Supervision and Regulation /signed/
Subject:   Material Loss Review of the Bank of the Commonwealth


The staff of the Division of Banking Supervision and Regulation has reviewed the draft Material
Loss Review of The Bank of the Commonwealth (Commonwealth), Norfolk, Virginia prepared
by the Office of Inspector General in accordance with section 38(k) of the Federal Deposit
Insurance Act, as amended. The report finds that Commonwealth failed due to weaknesses in
corporate governance, credit risk management, and internal controls combined with an
aggressive growth strategy that resulted in concentration risk. Moreover, the report finds that
Commonwealth failed to recognize the extent of problem loans and sufficiently reserve for credit
losses, and the bank engaged in unsafe and unsound practices to mask its problems.
Commonwealth was supervised by the Federal Reserve Bank of Richmond (FRB Richmond)
under delegated authority from the Board.

The report notes that FRB Richmond did not fully comply with examination frequency
guidelines for the time period that was reviewed, 2000 through 2011, because of a missed
mandate during the 2006 examination cycle. Furthermore, the report concludes that FRB
Richmond had identified fundamental weaknesses at Commonwealth during the 2000
examination but did not take decisive action to resolve those weaknesses, and those weaknesses
recurred in subsequent years. The report also concludes there were opportunities between 2007
and 2011 for FRB Richmond to take stronger supervisory action. Specific concerns about the
supervision of Commonwealth are noted in the report – including – missed detection of
inappropriate bank responses; report of examination content inconsistent with requirements;
potential compromise of examiner independence; and insufficient supervisory response to
suspicious activities of Commonwealth.

Banking Supervision and Regulation staff concurs with the conclusions and lessons learned in
the report. Regarding the recommendations made in the report, the Division will confirm that
FRB Richmond’s Senior Vice President of Supervision, Regulation, and Credit addresses the
recommendations related to report of examination content and review process and adoption of
measures to confirm independence of examination staff. In addition, the Division will issue

                                                 61
supplemental guidance for suspicious activity report filings by Federal Reserve Banks. Lastly,
the Division will consider defining circumstances when examination staff should refer to prior
enforcement actions when developing a supervisory strategy.




                                               62
Appendix 4 – Office of Inspector General Principal Contributors to This
Report
Karen M. Goldfarb, Project Leader and Auditor

Michael A. Olukoya, Auditor

Michael P. VanHuysen, Office of Inspector General Manager




                                            63
